<html>
<title> - RESEARCH TO IMPROVE WATER-USE EFFICIENCY AND CONSERVATION: TECHNOLOGIES AND PRACTICES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     RESEARCH TO IMPROVE WATER-USE
                      EFFICIENCY AND CONSERVATION:
                       TECHNOLOGIES AND PRACTICES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2007

                               __________

                           Serial No. 110-68

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
38-533 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                            October 30, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

                               Witnesses:

Dr. Glen T. Daigger, Senior Vice President and Chief Technology 
  Officer, CH2M Hill World Headquarters
    Oral Statement...............................................    12
    Written Statement............................................    13
    Biography....................................................    15

Mr. Ronald W. Thompson, District Manager, Washington County Water 
  Conservancy District, St. George, Utah
    Oral Statement...............................................    16
    Written Statement............................................    17
    Biography....................................................    19

Mr. Edward A. Clerico, President, Alliance Environmental
    Oral Statement...............................................    20
    Written Statement............................................    30
    Biography....................................................    40

Ms. Val L. Little, Director, Water Conservation Alliance of 
  Southern Arizona; Principal Research Specialist, College of 
  Architecture and Landscape Architecture, University of Arizona
    Oral Statement...............................................    40
    Written Statement............................................    42
    Biography....................................................    45

Mr. John A. Veil, Manager, Water Policy Program, Environmental 
  Science Division, Argonne National Laboratory
    Oral Statement...............................................    45
    Written Statement............................................    46
    Biography....................................................    51

Discussion
  The Need for Government-funded R&D.............................    51
  User Reactions to Water Reuse Programs.........................    52
  Do We Need More R&D or Better Implementation?..................    53
  Water Conservation Technologies and Practices..................    55
  Hydraulic Fracturing and Enhanced Oil Recovery.................    57
  Customer Satisfaction With Greywater Systems...................    58
  Greywater System Costs.........................................    59
  Can We Drink Produced Water?...................................    59
  Cost of Other Forms of Water Treatment.........................    59
  Water Conservation and the WaterSense Program..................    62

              Appendix: Additional Material for the Record

Section-by-Section Analysis of H.R. 3957, the Water-Use 
  Efficiency and Conservation Research Act of 2007...............    66

Discussion Draft of H.R. 3957, October 18, 2007..................    67


RESEARCH TO IMPROVE WATER-USE EFFICIENCY AND CONSERVATION: TECHNOLOGIES 
                             AND PRACTICES

                              ----------                              


                       TUESDAY, OCTOBER 30, 2007

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Research to Improve Water-Use

                      Efficiency and Conservation:

                       Technologies and Practices

                       tuesday, october 30, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, October 30, 2007 the Subcommittee on Energy and 
Environment of the Committee on Science and Technology will hold a 
hearing to receive testimony on H.R. 3957, the Water-Use Efficiency and 
Conservation Research Act of 2007. The purpose of the hearing is to 
evaluate the need for research and development of technologies and 
processes to enhance water-use efficiency and water conservation. The 
Committee will also ascertain perspectives on current federal efforts 
to promote water-use efficiency and conservation through programs such 
as the WaterSense Program of the Environmental Protection Agency (EPA).

Need for Legislation

    The dwindling supply of water in the United States has created 
increasing concern at all levels of government. Since 1950, the United 
States population has increased nearly 90 percent. In that same period, 
public demand for water has increased 209 percent. Americans now use an 
average of 100 gallons of water per person each day. This increased 
demand has put additional stress on water supplies and distribution 
systems, threatening both human health and the environment.
    Approximately 26 billion gallons of water are used every day in the 
United States and thirty six states are anticipating local, regional, 
or statewide water shortages by 2013. However, some states are already 
in the middle of a severe drought. Most of the Southeastern United 
States, stretching from Tennessee across the Carolinas and into 
Georgia, is suffering from an exceptional drought, the highest 
intensity as measured by the U.S. Drought Monitor. The city of Atlanta 
is bracing as experts argue whether the city water supply will last as 
few as three months or as many as nine months.
    In California, catastrophic fires burned across areas of the 
southern part of the state this week. Extreme drought conditions over 
the past two years have played a large role in creating the conditions 
that made such a disaster possible. More than 500,000 people were 
evacuated from their homes at the height of the fires, the largest 
number in California history. Over 2,000 homes and at least 180 
commercial buildings were destroyed or damaged. The drought gripping 
the West is considered by some experts to be the worst in 500 years, 
with effects in the Colorado River basin that have been considerably 
more damaging than during the Dust Bowl years, according to scientists 
at the U.S. Geological Survey. Compounding the problem, the Colorado 
River had its highest flow of the 20th century from 1905 to 1922, the 
years used as the basis for allocating the River's water between the 
Upper and Lower Colorado Basin states under the Colorado River Compact.
    Climate change related effects are expected to exacerbate already 
scarce water resources in many areas of the country. The 
Intergovernmental Panel on Climate Change's (IPCC) 2007 assessment 
states that water stored in glaciers and snow cover is projected to 
decline, reducing water availability to one-sixth of the world's 
population that relies upon melt water from major mountain ranges. The 
IPCC also predicts droughts will become more severe and longer lasting 
in a number of regions.
    Although some water efficiency strategies require an initial 
capital investment, in the long run, conserving water provides 
significant cost savings for water and wastewater systems. Water 
efficiency and reuse programs help systems avoid, down-size, and 
postpone expensive infrastructure projects, by developing new water 
supplies.
    Introduced by Representative Jim Matheson, H.R. 3957 would 
establish a research and development program within the Environmental 
Protection Agency's Office of Research and Development (ORD) to promote 
water efficiency and conservation. The program would collect and 
disseminate information on water conservation practices. Through this 
program, EPA will be able to encourage the adoption of technologies and 
processes that will achieve greater water-use efficiency thereby 
helping to address the water supply shortages in the United States.
    H.R. 3957 would expand EPA's scope and involvement solving the 
Nation's water crisis by researching innovations in water storage and 
distribution systems, as well as, behavioral, social, and economic 
barriers to achieving greater water efficiency. In addition, the 
program will research technologies and processes that enable the 
collection, treatment, and reuse of rainwater and greywater, waste 
water from sinks, baths and kitchen appliances.

Background on EPA's Current Water Research and Outreach Programs

    EPA currently has no research and development effort that addresses 
water supply issues. In conjunction with its statutory responsibilities 
to ensure water quality under the Clean Water Act and the Safe Drinking 
Water Act, EPA has a program of research and development on water 
treatment technologies, health effects of water pollutants, security 
from deliberate contamination, and watershed protection. Current annual 
funding for these activities is approximately $50 million. EPA does not 
have a research and development program to address water-use efficiency 
or conservation.
    In June of 2006, EPA created a voluntary program entitled 
WaterSense, which focuses on educating consumers about available 
choices to save money and conserve water. Similar to Energy Star 
ratings, the WaterSense label indicates the performance of an appliance 
or product with respect to its water-use efficiency. Products 
displaying a WaterSense label must achieve water use reductions of at 
least 20 percent over similar appliances and products. In FY07, EPA 
obligated $2.4 million in funding for the WaterSense Program.
    Under the program's structure, manufacturers certify that products 
with the WaterSense label met EPA criteria for water efficiency and 
performance. Currently, the program has reviewed High-Efficiency 
Toilets, and plans on expanding its scope to include bathroom faucets, 
weather-based irrigation controllers, commercial toilets and faucets, 
and autoclave water valves. EPA estimates that if all U.S. households 
installed water-efficient appliances, the country would save more than 
three trillion gallons of water and more than $17 billion dollars per 
year. In addition, the average American household could save 20,000 
gallons of water per year if it installed an inexpensive low-flow 
showerhead. A low-flush toilet could reduce their water use by an 
additional 34 percent.
    At present, there is a lack of significant federal research and 
development aimed at addressing water-use efficiency and conservation, 
especially focused on residential and commercial uses. Because of the 
Agency's complementary work on water quality, the EPA is the logical 
federal entity to complete this research due to the important 
relationship between water supply and water quality.

Current State Initiatives on Water Efficiency

    Many states and local governments are taking action to promote 
greater water-use efficiency and conservation including: metering and 
sub-metering, rebates for purchase of water efficient products, use of 
drought tolerant landscaping, processed water use, greywater and 
rainwater utilization, and correcting infrastructure leaks.
    Because water supplies are controlled by local, regional and State 
government, a variety of approaches are being tested and implemented. 
While there are many benefits to having a diversity of creative 
efforts, the establishment of a central repository for information on 
the approaches and their costs and benefits is lacking. H.R. 3957 
directs EPA to gather this information and provide a central location 
for distributing information about successful projects that have been 
implemented by communities across the country to achieve greater 
adoption of technologies and policies on water conservation.
    Listed below are some examples of such efforts.

        <bullet>  The city of Tucson, Arizona has been active in the 
        promotion of xeriscaping: a practice of landscaping which does 
        not require supplemental irrigation. Common plants used in this 
        practice include agave, cactus, lavender, juniper, sedum and 
        thyme. Each year, a xeriscaping conference is held in Tucson, 
        as well as a contest awarding the best xeriscaping project. 
        City policy prevents the use of municipal groundwater supplies 
        for irrigating areas within public rights-of-way unless the 
        landscaping uses plants from a low water-use list.

        <bullet>  The State of New York passed legislation to establish 
        a Green Building Tax Credit, which allows building owners and 
        developers to deduct expenses associated with the design and 
        construction of ``green'' buildings, which includes a number of 
        water-use efficient practices.

        <bullet>  The city of Austin, Texas has instituted a highly 
        successful appliance replacement rebate plan to encourage 
        consumers to purchase water-use efficient toilets, clothes 
        washers, and irrigation equipment. Austin's Water Conservation 
        Program has contributed to a substantial reduction in per 
        capita water use. In 2006, the Austin City Council formed the 
        Water Conservation Task Force to find ways to implement a June 
        2006 directive to implement aggressive water conservation 
        measures. The anticipated recommendations include changes to 
        the plumbing code, a retrofit on resale for inefficient 
        plumbing fixtures, mandatory irrigation analyses for large 
        commercial properties, and stricter summer watering 
        regulations. Together, the measures should result in peak-day 
        water savings of nearly 33 million gallons per day at an 
        average cost of roughly $1.13 per gallon, one-third the cost of 
        building new treatment capacity.

        <bullet>  The Santa Rosa Subregional Reclamation System in 
        Northern California is one of the largest recyclers of water in 
        the world. Last year 6,400 acres of farmlands, vineyards, and 
        public and private urban landscaping was irrigated with 
        recycled water. Of that, 85 percent was used for agricultural 
        purposes. The irrigation system is supported by storage 
        reservoirs that can hold over 1.45 billion gallons of water. 
        The Subregional System serves the cities of Santa Rosa, Rohnert 
        Park, Sebastopol, Cotati, the South Park Sanitation District, 
        and some unincorporated parts of Sonoma County. In addition, 
        the Subregional System pipes its treated wastewater to a 
        geothermal energy plant to be used as re-injection fluid, 
        thereby prolonging the life of the reservoir while recycling 
        the treated wastewater. The addition of wastewater produces 
        close to 85 megawatts of electricity a day, enough to supply 
        the residential energy needs of Santa Rosa.

        <bullet>  The Pennsylvania Water Conservation Leak Detection 
        Program is a joint effort of the Pennsylvania Department of 
        Environmental Protection and the Pennsylvania Rural Water 
        Association (PRWA). PRWA uses set-aside funds to provide two 
        circuit riders to conduct water audits and perform leak 
        detection for small systems (serving fewer than 10,000 
        persons). Despite the time-consuming nature of the project, the 
        circuit riders have detected 594 leaks and saved over 1.4 
        billion gallons of water and $1.36 million annually. From June 
        2001 to July 2002, 24 systems underwent water audits. A total 
        of 152 leaks were detected, which saved systems over 396 
        million gallons of water from 36 percent to nine percent.

Witnesses

Glen Daigger, Vice President at CH2MHill
    Dr. Daigger is a Senior Vice President and Chief Technology Officer 
for CH2M Hill. He received a B.S., M.S., and Ph.D. in Civil Engineering 
from Purdue University. He is the recipient of numerous awards, 
including the Kappe and Freese Lectures and the Harrison Prescott Eddy, 
Morgan, and the Gascoigne Awards from Water Environment Federation. A 
member of a number of professional societies, Dr. Daigger is also a 
member of the National Academy of Engineers.

Ed Clerico, CEO of Alliance Environmental and Designer at the Solaire 
Project in NYC
    Mr. Clerico is a licensed professional engineer and licensed 
wastewater operator in NY, NJ, and PA and is an accredited LEED 
professional. He holds a B.S. and M.S. in Bio-Ag Engineering from 
Rutgers University. He was the founder and president of Applied Water 
Management, Inc. before holding executive roles with American Water as 
Technical Development Director and VP Strategy. Presently, he operates 
his own consulting business, Alliance Environmental, and focuses on 
initiatives that involve integrated water management, including the 
Solaire project in New York City.

Val Little, Director of the Water Conservation Alliance of Southern 
Arizona
    Ms. Little is the Director of the Water Conservation Alliance of 
Southern Arizona. In addition, she serves as a Principal Research 
Specialist at the University of Arizona's College of Architecture and 
Landscape Architecture. She received her A.B. in Landscape Architecture 
from the University of California, Berkeley, and her M.A. in 
Anthropology from the University of Arizona.

Ron Thompson, District Manager of the Washington County Water 
Conservancy District
    Mr. Thompson is the District Manager of the Washington County Water 
Conservancy District. He graduated from Brigham Young University in 
1971 with a degree in Accounting and received his law degree from the 
University of Utah in 1974. Mr. Thompson is a past president of the 
Utah Water Users Association, Vice Chairman of the Resolutions 
Committee for the National Water Resources Association, and Vice 
Chairman of the Resolutions Committee for the Colorado River Water 
Users. He also serves on the Board of Trustees of the Utah Water 
Finance Agency, State of Utah Drinking Water Board, and serves as the 
Utah representative for the National Water Resources Endangered Species 
Task Force.

John Veil, Senior Scientist at Argonne National Laboratory
    Mr. Veil is the Manager of the Water Policy Program for Argonne 
National Laboratory in Washington, DC, where he holds the rank of 
senior scientist. He analyzes a variety of energy industry water and 
waste issues for the Department of Energy. Mr. Veil has a B.A. in Earth 
and Planetary Science from Johns Hopkins University, and two M.S. 
degrees, in Zoology and Civil Engineering, from the University of 
Maryland. Before joining Argonne, Mr. Veil managed the Industrial 
Discharge Program for the State of Maryland government where he had 
statewide responsibility for industrial water pollution control 
permitting through the National Pollutant Discharge Elimination System 
(NPDES), Underground Injection Control (UIC), and oil control programs.

Section-by-Section description of H.R. 3957

Title: Water-Use Efficiency and Conservation Research Act 2007

Purpose: To increase research, development, education, and technology 
transfer activities related to water use efficiency and conservation 
technologies and practices at the Environmental Protection Agency 
(EPA).

Section 1: Short Title

    The Water-Use Efficiency and Conservation Research Act.

Section 2: Findings

    Section 2 includes the Congressional findings and defines the need 
for expanding the scope of research and development conducted by the 
Environmental Protection agency to include water-use efficiency and 
conservation to address the problems of increasing water shortages 
across the country.

Section 3: Research Program

    Section 3 directs the Assistant Administrator to establish a 
research, development, and demonstration program within the 
Environmental Protection Agency's Office of Research and Development to 
promote water-use efficiency and conservation. The bill provides 
examples of several areas the program should address including water 
storage and distribution systems; and behavioral, social, and economic 
barriers to achieving greater water-use efficiency. In addition, the 
bill states the program should research technologies and processes that 
enable the collection, treatment, and reuse of rainwater and greywater. 
The specific projects selected for funding through the program should 
reflect the needs identified by local and State water managers.

Section 4: Technology Transfer

    Section 4 directs the Assistant Administrator to collect and 
disseminate information on current water-use efficient and conservation 
technologies and practices to facilitate their adoption. This 
information should include incentives and impediments to development 
and commercialization, best practices, and anticipated increases in 
water-use efficiency resulting from the implementation of these 
processes.

Section 5: Report

    Section 5 directs the Assistant Administrator to report to Congress 
on the progress being made by the Environmental Protection Agency with 
regard to the research projects initiated, and the outreach and 
communication activities conducted through the program.

Section 6: Authorization of Appropriations

    Section 6 provides a five-year authorization of the program with 
such sums as necessary to carry out the program.
    Chairman Lampson. This meeting will now come to order. I 
wish you all a good afternoon and welcome to today's hearing on 
expanding research to improve water-use efficiency and 
conservation. The Subcommittee is here to receive testimony on 
H.R. 3957, the Water-Use Efficiency and Conservation Research 
Act of 2007, introduced by good friend Jim Matheson. 
Congressman, I want to thank you for your hard work and 
interest on this important subject.
    The world is covered by some 70 percent of water and less 
than three percent of it is freshwater. According to the United 
Nations Commission on Sustainable Development, a mere .007 of a 
percent of the Earth's total freshwater resources is accessible 
for human usage. Pollution and salinazation enhanced by drought 
conditions only serve to decrease the water available for our 
use.
    Drought and scarce water supplies have long been a problem 
for my home State of Texas. Population growth, increased energy 
demand, and climate change impacts are further endangering my 
state's limited supply. I think this is the first year in many 
that there has not been a significant drought any place in the 
State of Texas.
    The Texas Water Development Board estimated demand for 
water use will exceed water supply in Texas by the year 2050. 
This story is repeating itself across the country. This year's 
epic drought in the Southeast threatens the water supply for 
millions. Water levels in the Great Lakes have been declining. 
Upstate New York's reservoirs have dropped to records lows. And 
in the West, the mountain snow pack is melting earlier and 
faster, affecting freshwater supplies for all of those who rely 
on snowmelt-fed rivers.
    We cannot solve these problems overnight, but H.R. 3957 
will provide us with several important tools to address the 
coming crisis with technology and innovative thinking. By 
encouraging research and development into water-use efficiency, 
we can create a path to increase our nation's water supplies.
    Investing in water-use efficiency strategies requires some 
expenditure now, but in the long run, conserving water provides 
substantial costs savings for governments and the American 
public. The Environmental Protection Agency estimates that if 
all U.S. household installed water-efficient appliances, the 
country would save more than three trillion gallons of water 
and more than $17 billion per year.
    I want to than our distinguished panel for traveling to 
testify at this afternoon's hearing. I look forward to your 
testimony and to your recommendations as to how we can make 
better use of our scare water resources. Thank you.
    [The prepared statement of Chairman Lampson follows:]

              Prepared Statement of Chairman Nick Lampson

    Good Afternoon and welcome to today's hearing on expanding research 
to improve water-use efficiency and conservation. The Subcommittee is 
here to receive testimony on H.R. 3957, the Water-Use Efficiency and 
Conservation Research Act of 2007, introduced by my good friend Jim 
Matheson. Congressman, I want to thank you for your hard work and 
interest on this important subject.
    Although the world is covered by 70 percent water, less than three 
percent of it is freshwater. According to the United Nations Commission 
on Sustainable Development, a mere .007 percent of the Earth's total 
freshwater resources is accessible for human use. Pollution and 
salinization enhanced by drought conditions only serve to decrease the 
water available for our use.
    Drought and scarce water supplies have long been a problem for my 
home State of Texas. Population growth, increased energy demand, and 
climate change impacts are further endangering my state's limited 
supplies. The Texas Water Development Board estimates demand for water 
use will exceed water supply in Texas by the year 2050.
    This story is repeating itself across the country. This year's epic 
drought in the southeast threatens the water supply for millions. Water 
levels in the Great Lakes have been declining. Upstate New York's 
reservoirs have dropped to record lows. And in the West, the mountain 
snowpack is melting earlier and faster, affecting fresh water supplies 
for all those who rely on snowmelt-fed rivers.
    We cannot solve these problems overnight. But H.R. 3957, will 
provide us with several important tools to address the coming crisis 
with technology and innovative thinking. By encouraging research and 
development into water-use efficiency, we can create a path to increase 
our nation's water supplies.
    Investing in water-use efficiency strategies requires some 
expenditure now, but in the long run, conserving water provides 
substantial cost savings for governments and the American public. The 
Environmental Protection Agency estimates that if all U.S. households 
installed water-efficient appliances, the country would save more than 
three trillion gallons of water and more than $17 billion dollars per 
year.
    I want to thank our distinguished panel for traveling to testify at 
this afternoon's hearing. I look forward to your testimony and to your 
recommendations as to how we can make better use of our scarce water 
resources.

    Chairman Lampson. And I recognize the Ranking Member, Mr. 
Inglis, for his opening remarks.
    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I also appreciate Mr. Matheson's work to 
introduce H.R. 3957, the Water-Use Efficiency and Conservation 
Research Act. This bill highlights the need to think more 
conservatively about invaluable water recourses.
    We don't have to look far to realize the devastating effect 
of water shortages and what they can do to our lives: fires 
that threaten and destroy California, droughts that debilitate 
crops in South Carolina and a number of other Southeastern 
states, and global citizens who have to travel farther and 
farther to reach freshwater.
    By supporting research and development into enhanced water-
use efficiency and water conservation, the Federal Government 
can help improve our national and global response to water 
shortage.
    I am looking forward to hearing from our witnesses today 
about the type of research technologies best suited to meet 
this goal. Mr. Chairman, I will also ask the Environment 
Protection Agency, the agency tasked with carrying out the 
provisions of this bill, to look at the legislation and provide 
comments on it. Since the agency was not provided--was not 
asked to provide a witness today, I think it only appropriate 
that we agree to take their comments into consideration as we 
move the bill through the legislative process.
    Thank you, again, Mr. Chairman, and I look forward to 
discussing the bill with the panel.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Thank you for holding this hearing, Mr. Chairman. I also appreciate 
Mr. Matheson's work to introduce H.R. 3957, the Water-Use Efficiency 
and Conservation Research Act. This bill highlights the need to think 
more conservatively about invaluable water resources.
    We don't have to look far to realize the devastating effects water 
shortages can have in our lives--fires threaten and destroy California, 
droughts debilitate crops in South Carolina and a number of other 
southeastern states, and global citizens have to travel farther and 
farther to have access to fresh water. By supporting research and 
development into enhance water-use efficiency and water conservation, 
the Federal Government can help improve our national and global 
response to water shortages. I'm looking forward to hearing from our 
witnesses today about the type of research and technologies best suited 
to meet this goal.
    Mr. Chairman, I have asked the Environmental Protection Agency, the 
agency tasked with carrying out the provisions of this bill, to look at 
the legislation and provide comments on it. Since this agency was not 
asked to provide a witness today, I think it only appropriate that we 
agree to take their comments into consideration as we move this bill 
through the legislative process.
    Thank you again, Mr. Chairman, and I look forward to discussing 
this bill before the Subcommittee.

    Chairman Lampson. Thank you, Mr. Inglis, and I certainly 
will take note of your request. It makes sense.
    I ask unanimous consent that all additional opening 
statements submitted by the Subcommittee Members be included in 
the record. Without objection, so ordered.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Mr. Chairman, I appreciate the Subcommittee looking into this issue 
today, as the recent droughts in the southeastern part of our country 
have highlighted the need for research and development surrounding 
water conservation.
    It is clear that our nation's rapid growth over the twentieth 
century has placed a great deal of stress on our natural resources. 
Americans now use an average of 100 gallons of water per person each 
day. Although the EPA has conducted research and development on water 
treatment technologies and ensures quality drinking water under the 
Clean Water Act and Safe Drinking Water Act, there is currently no 
research and development that address water supply issues. Sustaining 
and protecting our water supplies will affect every district in 
America, which is why it is so important to conduct this hearing today.
    Mr. Chairman, now is clearly the time to act to research, collect 
information under one body, and begin the process to better protect our 
natural resources. I commend you on the timeliness of this hearing, and 
I look forward to learning about the possibilities for action. Thank 
you.

    Chairman Lampson. It is my pleasure to introduce some of 
our witnesses today. We will start with Dr. Glen Daigger, who 
is a Senior Vice President with CH2M Hill, where he is 
currently the chief technology officer for the firm's civil 
infrastructure businesses. He is also a technology fellow in 
wastewater treatment, serving as senior consultant and process 
engineer on municipal and industrial wastewater treatment and 
reclamation projects. Mr. Ed Clerico is a water reuse expert 
and an accredited LEED professional, licensed professional 
engineer, and licensed wastewater operator in New York, New 
Jersey, and Pennsylvania. Mr. Clerico is currently President of 
Alliance Environmental, a consulting group that focuses on 
green-building concepts.
    And at this time, we have several Members here today who 
will be introducing the remainder of our witnesses. First, I 
would like to yield to the author of H.R. 3957, Mr. Matheson.
    Mr. Matheson. Well, thank you, Mr. Chairman, and I am 
pleased to introduce a constituent of mine, Ron Thompson, who 
is the District Manager of the Washington County Water 
Conservancy District. Mr. Thompson participates on so many 
different boards and associations, I am not sure I can read 
through all of them. I want to tell you, this is an individual 
who faces some real challenges in a county that is one of the 
fastest-growing counties in the United States. It is also one 
of the most arid counties in the United States, and he has a 
wealth of experience and knowledge about how to meet those 
challenges, with a portfolio approach. One piece of that 
portfolio has to do with conservation and efficiency, and so, I 
am pleased that he could come here today and participate as a 
witness on this panel.
    I will yield back, Mr. Chairman.
    Chairman Lampson. Thank you, Mr. Matheson. The gentlelady 
from Arizona, Ms. Giffords.
    Ms. Giffords. Thank you. I am pleased to introduce a 
constituent of mine who is the Director of the Water-
Conservation Alliance of Southern Arizona, also known as Water 
Casa. She is also a principal research specialist with the 
University of Arizona's college of architecture and landscape 
architecture. She is the author of numerous water-use 
efficiency publications, and has worked internationally on 
water-conservation issues, ranging from the Middle East to 
Central America.
    I have had a chance to work with Ms. Little in my early 
days in the Arizona State legislature, where we collaborated on 
legislation that created the incentives for homebuilders to 
initiate greywater plumbing systems in new-home construction.
    As a leader in our community, particularly coming from the 
Sonorian Desert where we don't have a lot of water, Ms. Little 
has been instrumental in bringing diverse stakeholders together 
to address the future of water in our desert home. It is my 
pleasure that she has come all of the way from Southern Arizona 
to be with us today.
    My staff has also informed me that the students of the 
University of Arizona are now watching the video teleconference 
to your testimony. Here is a shout out to all of the students 
at the University of Arizona for participating via the 
technology of the Internet. I know that we are all working 
collaboratively to make sure that our water supply remains 
secure.
    Chairman Lampson. Thank you, Ms. Giffords. And the 
gentlelady from Illinois, Ms. Biggert, will introduce our final 
witness.
    Ms. Biggert. Thank you, Mr. Chairman, and it is a pleasure 
for me to introduce Mr. John Veil, a respected senior scientist 
from Argonne National Laboratory, and manager of its water-
policy program. Before joining Argonne, Mr. Veil managed the 
industrial-discharge program for the State of Maryland and was 
a faculty member in the department of zoology at the University 
of Maryland. His biography has a very distinct Maryland theme, 
despite working for Argonne, which is in my district in 
Illinois. Mr. Veil is a resident of Maryland, but he is a great 
asset to the laboratory and to the people of Illinois. He and 
other water experts from Argonne and Purdue University, Calumet 
City, are currently working with scientists and engineers at BP 
to explore the application of emergency technologies that could 
address wastewater treatment challenges faced by the company at 
its Whiting, Indiana, oil refinery on Lake Michigan. And 
millions get their drinking water from Lake Michigan and the 
other Great Lakes, so that is why many of us in Congress care 
deeply about this amazing freshwater resource and why Mr. 
Veil's contributions to protect it are so important. I would 
like to thank him for being here, and I yield back.
    Chairman Lampson. Thank you, Ms. Biggert, and I want to 
thank you and welcome all of our witnesses. We do appreciate 
your coming. And as you all know, you will have five minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you have completed 
your testimony, we will begin with questions. Each Member will 
have five minutes to question the panel.
    And Dr. Daigger, we will begin with you.

  STATEMENT OF DR. GLEN T. DAIGGER, SENIOR VICE PRESIDENT AND 
     CHIEF TECHNOLOGY OFFICER, CH2M HILL WORLD HEADQUARTERS

    Dr. Daigger. Thank you, Mr. Chairman. I will generally 
follow the written testimony here, but I appreciate very much 
the opportunity to speak to you today to discuss this very 
important topic. In my over 30 plus years of professional 
experience, I have worked around the U.S. and around the world, 
focusing on clean water and sanitation. This is an area that is 
near and dear to my heart.
    I don't need to discuss the urgent need to provide clean 
water and sanitation in the United States. You have all 
expressed that need very well. What it leads to, of course, is 
conflict between urban and rural areas and people and the 
environment. We are seeing that, certainly in Georgia.
    What is important is that there are solutions to these 
issues, and this bill will help to advance those. And what we 
do need, though, is your help to help advance these solutions 
into a practice through demonstration and additional research. 
So let me provide some perspective in terms of overall 
direction and how this fits in.
    Water has historically been managed in urban areas and 
public health has been protected by transporting water. A 
pristine water source is identified. It is conveyed to the 
public, and it is used to transport waste out of that urban 
area. There are those that say this is an invention of the 18th 
and 19th century, but actually you go back to the ancient 
cities, and this is the approach that was used. So this is 
something which has been used throughout the history of mankind 
to manage water in urban areas.
    When the population was much lower, and when the burden on 
the environment was much less, this was really a brilliant 
solution in terms of protecting public health. The statistics 
are very clear in terms of its benefit in creating the standard 
of living that we have in the U.S., and some of those specific 
comments are in the testimony. The issue, though, is that with 
population growth, and particularly the urbanization that we 
have, this approach is really no longer working for us. But 
fortunately, again, we have an alternative to transportation of 
water and waste. That is treatment, which is sufficiently 
reliable to be deployed at a more local basis so that we can 
use and reuse water much more efficiently.
    Some of the most important treatment systems are: 
membranes, which function much like the kidney in terms of 
purifying water; ultraviolet disinfection, which mimics 
sunlight in terms of treating water; and a variety of other 
technologies. So you might ask, if we have these technologies, 
what help do we need? The help that we need is to be able to 
deliver these more quickly into routine practice.
    And as I talk about that, let me talk a little bit about--I 
am a person that is involved in water issues around the world. 
I want to talk for a minute about what some others countries 
are doing. Countries--and you know, this country, in decades 
past, have made significant public investments in water 
research and created the systems we have which have really 
benefited the world. Counties like France and Canada, Japan, 
and the United Kingdom have emulated that, and quite frankly, a 
lot of the advancements that are occurring are being developed 
in other countries. Right now, for example, the Republic of 
Singapore, with only 4.5 million people, is investing $330 
million in research. Korea is investing $140 million a year in 
their water research. So I give that perspective.
    What we need is three things. One is help to demonstrate. 
The second is help to further advance this technology through 
things like nanotechnology and biotechnology. And then, 
finally, quite frankly, we need help in terms of our academic 
investments to maintain a healthy academic systems.
    At the conclusion of my written testimony, I reiterate that 
I think something on the order $100 million in terms of R&D 
investment, and the academic community needs about $20 million 
a year in order to support the faculty and the professionals 
that we need graduating to continue this wonderful profession 
that exists in the U.S.
    Thank you very much.
    [The prepared statement of Dr. Daigger follows:]

                 Prepared Statement of Glen T. Daigger

    Mr. Chairman and Members of the Subcommittee, my name is Glen 
Daigger and I am a Senior Vice President and the Chief Technology 
Officer for the Civil Infrastructure Client Group of CH2M HILL. I want 
to thank you for the opportunity to speak before you today, to discuss 
the very important and timely issue of water resources in our country. 
My over 30-year professional career has been devoted to securing safe 
drinking water supplies and sanitation for locations throughout the 
United States and around the world. I do not need to discuss the urgent 
need to provide clean water and sanitation for the United States and 
the world as water scarcity continues to be in the headlines and is a 
source of conflict between urban areas and agriculture and between 
people and the environment. Population growth, increasing urbanization, 
and climate change will only exacerbate the situation and dramatically 
increase these conflicts. Fortunately solutions are available, but we 
need your help to further develop, demonstrate, and more quickly deploy 
them. Let me provide some background and perspective.
    Water has historically been managed in urban areas and public 
health has been protected by transporting water. A pristine water 
source was identified remote from the urban area and transported there. 
Used water (some refer to this using the more derogatory terms sewage 
and wastewater) was transported away from the urban area to protect 
public health by minimizing its contact with the public. ``Mother 
nature'' was depended on to treat the used water, thereby reclaiming it 
and recycling it for subsequent use. Although some think of this as an 
invention of the 18th and 19th century, this practice actually began 
with the cities of the ancient world, with gravity providing the force 
to convey water. The advent of mechanical devices (pumps driven first 
by steam and later by electrical engines) during the industrial 
revolution provided greater freedom in the location of cities as the 
dependence on gravity was eliminated. This approach worked brilliantly 
when the population of the planet was less than about 1.5 billion (and 
the population of the U.S. less than 100 million), and only a small 
fraction of the human population lived in urban areas. For example, the 
average life span of Americans increased by about 30 years (from 47 
years to 76 years), over the 20th century. Twenty of the thirty years 
of added life span are attributable to clean water and modern 
sanitation! In fact, when the British Medical Journal recently surveyed 
public health professionals about the single greatest contribution to 
public health over the past 150 years, modern water systems were ranked 
first, above such medical revolutions as vaccinations and antibiotics. 
Unfortunately, this brilliant solution, which worked so well up to the 
early part of the 20th century, is now insufficient with more than a 
four fold increase in population through the 20th century and a 
dramatic increase in urbanization. Today we are taking too much water 
out of the environment, and Mother Nature is not able to reclaim and 
recycle the used water fast enough.
    Fortunately, new approaches are available to manage water in urban 
settings which address these problems. Essentially, treatment can 
replace transportation. Increased standards of living have increased 
water use dramatically, but currently available water saving devices 
allow water to be used more efficiently, thereby reducing the net 
demand. While technologies have been available for decades to treat raw 
water for drinking and used water for return to the environment, new, 
more reliable treatment technologies are becoming available that allow 
used water to be reclaimed to potable standards, or better! Thus, we no 
longer need to return used water to the environment and depend upon 
Mother Nature to reclaim and recycle it. The historic approach of using 
transport and discharge to protect public health can be replaced with 
reclamation and reuse technologies that mimic Mother Nature. The result 
is more efficient use of water. Consider that urban water use in the 
United States currently averages about 150 gallons per person per day. 
Benchmarking with experiences around the world indicates that water 
conservation can lower this substantially, and the use of water 
reclamation and reuse can lower this further to 20 to 30 gallons per 
person per day. The net result is that the amount of water withdrawn 
from the environment is reduced dramatically.
    Three of the most promising treatment technologies include 
membranes, advanced oxidation, and ultra-violet (UV) light. We all have 
a treatment device inside of us called the kidney which removes waste 
products. Membranes function much like the kidney, cleaning water in a 
highly effective fashion. Membranes can be further coupled with 
biological treatment processes which use microorganisms to convert 
pollutants in the used water into harmless by-products. Sunlight is an 
effective disinfectant and is mimicked by UV systems. Advanced 
oxidation produces hydroxyl radicals which can very effectively convert 
recalcitrant contaminants into a form that the microorganisms can 
consume. These technologies, in concert, can take the most contaminated 
water and purify it to a quality much better than drinking water. They 
can be further coupled with evolving urban water management practices 
such as rainwater harvesting, storm water management using low impact 
development, and natural treatment systems like wetlands to allow local 
rainfall and reclaimed water to be used for a variety of purposes and 
dramatically reduce the reliance of urban areas on transported water.
    With all of these developments you might ask why we need your help. 
The reason is that the benefits of these technologies and approaches 
can only be realized when they are assembled together properly in an 
overall integrated urban water management system. Moreover, while the 
application principals for these new systems are general in nature, the 
optimum system for any given urban area is relatively site-specific. 
Thus, a relatively complete system must be assembled before the full 
range of benefits can be achieved. In short, demonstrations in a 
variety of settings are required to provide the real-world examples 
needed by urban water managers to gain support for local 
implementation.
    Support is needed for a second reason. The rapid advances occurring 
in bio- and nanotechnology offer the potential to greatly increase the 
effectiveness of these technologies. However, support is needed to 
further develop these fundamental research results into practical 
research results that will support the development of additional 
breakthrough water treatment technologies. Research funding in the 
water area is also needed to stem the loss of critical research and 
educational capacity. Before expanding upon this, let me share some 
observations about the funding of water research around the world.
    The U.S. led the world in developing and implementing revolutionary 
water management systems throughout the second half of the 20th 
century. This occurred because of national need but was enabled by 
consistent federal funding for research that built the strongest 
network of researchers and educators in the world. Observing the 
success of this approach, other countries such as Canada, Japan, the 
United Kingdom, and France emulated this approach in the latter portion 
of the 20th century, with great success. This approach continues today, 
especially in a variety of Asian countries which have the same 
compelling national need and who see that federal funding of water R&D 
is a great public investment which returns itself many times over by 
both meeting critical national needs and by creating profitable 
national and export businesses. For example, the country of Singapore, 
with a population of 4.5 million people, is investing $330 million in 
water R&D over the next five years, and Korea is investing $140M/yr. 
The Singapore investment is attracting much larger private sector 
investments by industrial giants like GE and Siemens. What really 
worries me is China where the need is critical and the investments they 
are making will inevitably create export businesses that will threaten 
our U.S.-based industry.
    The question before is us whether the U.S. is going to give up its 
leadership in this critical area and fail to live up to its potential 
to dramatically improve the quality of life in the U.S. and around the 
world. This is the path that we are on, but it can be reversed with a 
fairly modest set of actions by the Federal Government. Critical 
support for R&D in this area of water use-efficiency and conservation 
is needed to enable the demonstration of these approaches and to 
support academic research that will advance the technology and also 
support the continued growth of our educational and research 
capabilities. Currently the Federal Government provides significant 
support to local governments for the construction of water and 
wastewater treatment facilities through the State Revolving Funds. 
Annual support has varied, but has regularly exceeded $1 billion/yr. A 
modest federal R&D investment of $100 to $200 million/yr. would 
catalyze a renewal of the U.S. water industry, with at least $20 
million/yr. going to support academic research. This is the help that 
we need and, when compared to current federal investments in water and 
wastewater, we see that it is well within the realm of possibility. 
Thus, I wholeheartedly support the Discussion Draft developed by 
Representative Matheson.
    Again, I want to thank you for the opportunity to address this 
critical national need, and I'm prepared to answer any questions you 
might have.

                     Biography for Glen T. Daigger
    Glen T. Daigger is a Senior Vice President with CH2M HILL where he 
currently serves as Chief Technology Officer for the firm's civil 
infrastructure businesses (water, operations, and transportation). He 
is responsible for the people, processes, and tools that deliver 
technology to serve clients in these business areas. He is also a 
Technology Fellow in Wastewater Treatment and, consequently, serves as 
senior consultant and process engineer on a wide variety of municipal 
and industrial wastewater treatment and reclamation projects. He has 
provided technical leadership to many landmark projects, including for 
example numerous biological nutrient removal (BNR) and water 
reclamation and reuse projects in locations ranging from the Chesapeake 
Bay and throughout North America to New Zealand, Australia, Singapore, 
China, Eastern Europe, and the Middle East. In addition to his 28 years 
with CH2M HILL, Dr. Daigger also served as Professor and Chair of 
Environmental Systems Engineering at Clemson University.
    Dr. Daigger is a recognized expert in wastewater management and in 
wastewater treatment process and facility design. Areas of special 
expertise include water reclamation and reuse, nutrient control, fixed 
film systems, membrane bioreactors (MBRs), sludge bulking and foaming 
control, and the design of sustainable water management systems. Dr. 
Daigger is the author or co-author of well over two hundred technical 
publications, several manuals that are widely used in the wastewater 
profession, and four books. Biological Wastewater Treatment, Second 
Edition is a widely used graduate textbook and Manual on the Causes and 
Control of Activated Sludge Bulking, Foaming, and Other Solids 
Separation Problems, Third Edition is the standard reference on this 
topic in the industry. He has invented several wastewater treatment and 
reclamation processes, including the Virginia Initiative Plant (VIP) 
BNR process, the Step Bio-P BNR process, various coupled fixed film/
suspended growth processes, and MBR-based BNR processes. He holds 
patents on several of these processes.
    Educated at Purdue University where he received his BSCE, MSCE, and 
Ph.D. in Environmental Engineering, Dr. Daigger is a member of the 
American Society of Civil Engineers (ASCE), American Water Works 
Association (AWWA), Association of Environmental Engineering and 
Science Professors (AEESP), International Water Association (IWA), and 
Water Environment Federation (WEF). He is a Diplomat of the American 
Academy of Environmental Engineers (AAEE) and a member of the United 
States National Academy of Engineering (the highest honor accorded to 
practicing engineers in the United States). He has served on the 
governing boards of AAEE, WEF, the Water Environment Research 
Foundation (WERF), and IWA where he is currently the Senior Vice 
President. He has served on the scientific committee of many IWA 
specialty conferences and has been a frequent presenter. For WEF he 
served as Chair of the task force which prepared the current edition of 
Manual of Practice No. 8, Design of Municipal Wastewater Treatment 
Plants, Chair of the Board of Editorial Review of Water Environment 
Research, Chair of the Technical Practice Committee, Chair of the 
Research Symposium of the WEFTEC Program Committee and Chair of the 
Committee Leadership Council (CLC). He is currently serving as 
Conference Chair for Sustainability 2008. He has received the Gascoigne 
and Morgan medals from WEF, and is the only back-to-back winner of the 
Harrison Prescott Eddy award. He has served as the Kappe lecturer for 
the AAEE, and is a recipient of the ASCE Simon W. Freese Lecture and 
Award. He recently completed service as Chair of the WERF Research 
Council.

    Chairman Lampson. Thank you, Dr. Daigger. It just seems 
like it is a recurring theme that we hear that we are spending 
less in science and other nations are spending more.
    Dr. Daigger. Yes, sir.
    Chairman Lampson. Mr. Thompson.

    STATEMENT OF MR. RONALD W. THOMPSON, DISTRICT MANAGER, 
 WASHINGTON COUNTY WATER CONSERVANCY DISTRICT, ST. GEORGE, UTAH

    Mr. Thompson. I appreciate the opportunity to be here. I am 
from Southwest Utah, and it is often said that it is so dry 
there our desert tortoises pack canteens, so water is very 
important, and we are in an area that is growing very quickly. 
We have gone from 13,000 people in 1970 to approximately 
160,000 people today. One out of every four homes is owned by 
what we call seasonal residents, or snowbirds as we refer to 
them. The water conservation in the arid desert that I come 
from is very important. Our average rainfall is about eight 
inches, and in the last several years, it has been much less 
than that, so our district has been involved in educating the 
public towards water conservation.
    I would just like to share a couple of observations of 
where I think technology has taken us today in the water-
conservation arena, from my perspective. We have a wastewater 
treatment plant in an area where probably 70 percent of our 
population lives. Since 1990, our population area has more than 
doubled. Our inflow to that plant has increased about 15 
percent.
    I think that is really a combination of two factors. One is 
technology, the low-flow appliances, the low-flow fixtures. The 
second has been an extensive and hard public education programs 
to the people, encouraging them to conserve water and to use it 
more wisely.
    Certainly, as we look westward and look at this nation, 
whatever you want to say, we are going to outgrow our water 
supply. It is, in fact, the lubricant that makes our economy 
thrive and protects and provides health and safety to our 
citizens, so the wise use of that water is a fact that we all 
have a pretty big investment in. In regards of where we are at, 
and the more mobile we are, we expect everyone's water supply 
to be adequate to meet our needs.
    In regards to what the cost is, I think that if I was going 
to talk about anything, certainly, I think technology is 
important, and we actually have just put on a wastewater-reuse 
plant, a 10 million-gallon-a-day plant, which we integrated to 
a secondary system. But it seems to me, as we look at 
conservation, we also need to remember there is some other 
impacts to conservation that aren't all that great, and I want 
to share those.
    One is that we need to remember that conservation isn't 
just taking every drop of water and returning none to the 
environment. And in our conservation plan, we actually take 
about 10 percent of what we conserve and put it back into 
environmental needs. The second thing is that we traditionally 
in the West have a policy that people, when they were overusing 
water, and we got in a crisis like we have been in the last 
years with the drought, we can ask people to conserve, cut that 
use back, and pick up a 15 or 20 percent savings for one year, 
two years, or three years. The more people conserve the better 
job they do, the more hardened our water supply has to become, 
so we no longer have a surplus capacity in our water-supply 
system. We are using that up, and that requires, as water 
mangers, that we have to harden that water supply.
    And of course, the other issue is what is the cost. As you 
start encouraging people to take out turf and replace it with 
concrete and what is the cost of that, which in many cases, it 
would be significant.
    To talk about what I think really works, I think education 
works, and we, in our district, put a lot of money into 
education, not just for the sake of education, but we don't 
believe that people will act without having been adequately 
educated in a lot of arenas. We have encouraged and require 
cities who buy water from us to have water-conservation plans 
that require tiered structures. We have put impact fees, so 
people who use more water have to pay a higher impact fee. We 
have entered into conservation agreements for those who will 
commit to use a water-wise landscape that allows them to pay a 
lesser impact fee. We have imposed time-of-day watering, which 
has saved, and then we have had improved technology. All of 
those, we believe, work, but I would say if you look at the 
whole arena, education is probably the most important single 
factor, because my observation is the more educated the public 
is on this issue, the more they buy into it, and the more they 
publicly support our expenditure in this arena. Thank you.
    [The prepared statement of Mr. Thompson follows:]

                Prepared Statement of Ronald W. Thompson

    Mr. Chairman and Members of the Subcommittee, Thank you for the 
opportunity to testify today. My name is Ron Thompson. I have been the 
General Manager of the Washington County Water Conservancy District in 
Washington County, Utah for the past 25 years.
    I appreciate this opportunity

        <bullet>  To familiarize you with the efforts our District is 
        putting forth to make water conservation a way of life;

        <bullet>  To share with you some ideas on what you can do to 
        help those of us who deal with the everyday task of water 
        conservation; and

        <bullet>  To give you my thoughts on the draft bill authored by 
        Rep. Matheson of Utah.

    Washington County is located in the extreme southwest corner of 
Utah. The area averages only eight inches of precipitation per year and 
is part of the northern reach of the Mojave Desert. In addition to a 
limited amount of water, we have 300 days of sunshine annually, a long 
growing season and a robust tourism industry that brings in 
approximately 3.5 million visitors each year. Water conservation is not 
optional for us; it is a way of life that each of our citizens must 
embrace.

Water Conservation Program

    In the past eleven years, the per capita water use in our county 
has dropped 24 percent. In 2008, the District will review its Water 
Conservation Plan and set new goals to achieve an additional 25 percent 
water savings. Washington County has achieved this 24 percent reduction 
in water use by utilizing several measures:

        <bullet>  All cities have time-of-day watering restrictions.

        <bullet>  Each city has a block rate structure for water 
        pricing so those using more water pay more.

        <bullet>  The District has implemented a county-wide impact fee 
        for all new construction based on the size of the irrigable 
        portion of the lot.

        <bullet>  Each city that purchases water from the District must 
        have a water conservation plan in place.

        <bullet>  A telemetry project has been initiated that monitors 
        diversions along the Santa Clara and Virgin rivers to minimize 
        water loss and enhance precision in measuring water right 
        allowance.

        <bullet>  Canal systems have been converted to pressurized 
        irrigation systems thereby eliminating water loss from seepage 
        and evaporation.

    Water saving programs have been implemented which include:

        <bullet>  Ultra low flush (ULF) toilet rebates;

        <bullet>  WaterSense dishwashers and clothes washer rebates;

        <bullet>  An astro-turf rebate program--athletic fields and 
        public facilities that have turf receive a rebate for up to 
        one-half of the cost to convert it to astro-turf;

        <bullet>  County-wide free water checks;

        <bullet>  Smart Irrigation Controller rebates;

        <bullet>  State Water-Wise Plant List and Tagging program;

        <bullet>  Distribution of new arrival water survival kits;

        <bullet>  Water-efficient landscape workshops; and

        <bullet>  Training for and certification of professional 
        landscapers in the use of water wise plants.

Education of the public is a key component to water conservation:

        <bullet>  The District publishes a quarterly newsletter which 
        highlights water conservation;

        <bullet>  Articles and editorials are submitted to local 
        newspapers;

        <bullet>  Annual water fairs are sponsored;

        <bullet>  A water conservation demonstration garden has been 
        completed to educate the public about Xeriscape principles;

        <bullet>  Various media venues are utilized;

        <bullet>  Education of the media is a priority; and

        <bullet>  Presentations are given to local organizations.

    In addition to all these conservation efforts, the District is a 
member of the Governor's Water Conservation Team, a statewide program 
that encourages an ethic of conservation and water use efficiency.
    We have made great strides in the conservation of this resource, 
but we have a long way to go. We will continue to provide water saving 
programs and to further educate the public on the value of this 
resource and how they should approach its use. But we need to go beyond 
this. Right now our District is looking at such conservation projects 
as waste water reuse and agricultural conversion to residential water 
systems.
    These efforts to encourage water conservation and implement 
conservation projects do not come easy and they do not come cheaply. 
Hours of staff time are devoted just to this one component of a water 
district's mission. We were the first Water Conservancy District in 
Utah to submit a water conservation plan to Utah State. We were the 
first Water Conservancy District to partnership with EPA in the 
WaterSense Program.
    The EPA's WaterSense Program has been influential in several ways 
and has helped us with our conservation mission in Washington County:

        <bullet>  It has encouraged manufacturers and distributors to 
        produce high-efficiency water products.

        <bullet>  It has encouraged consumers to look for products that 
        will save water.

        <bullet>  Most of all--it has given the public some practical 
        methods for saving water. People want to save water and they 
        want to do it in a way that will not be totally disruptive of 
        their lifestyle. They oftentimes, however, do not know how to 
        go about it. Education is the key. The WaterSense Program is 
        educational and practical.

        <bullet>  Most of all, it puts the issue of conserving water on 
        a national level, allowing both the public and private sectors 
        to synergize their expertise in promoting the efficient use of 
        water.

    We need your continued support if we are to make further strides in 
water conservation. I encourage you, our elected Representatives, to 
continue leading the charge on water conservation. Help us in 
Washington County meet our next 25 percent water reduction goal. We are 
working to:

        <bullet>  Require that secondary water systems be in place 
        before a new housing development proceeds.

        <bullet>  Require government facilities to build and landscape 
        in a water-wise manner. If government will reduce its water 
        consumption, the public may be motivated to reduce theirs.

        <bullet>  Continue and enhance grant funding for water 
        conservation measures and incentives.

        <bullet>  Continue funding for water conservation projects such 
        as wastewater reuse and reverse osmosis treatment facilities.

        <bullet>  Provide grants to assist business such as restaurants 
        and car washes to install water efficient technology.

        <bullet>  Legislate and implement tax credits for those who 
        install high efficiency appliances.

        <bullet>  Provide grants for educational campaigns encouraging 
        water conservation and the practical means to reach 
        conservation goals.

        <bullet>  Provide grants to schools to enable them to initiate 
        a water conservation curriculum. Future generations will be 
        dealing with limited water resources and a growing demand.

    We support and commend Congressman Matheson's water conservation 
legislation because it recognizes the challenges facing our nation 
today with regard to water resources:

        <bullet>  Our population is rapidly growing;

        <bullet>  Extreme water shortages are forthcoming; and

        <bullet>  Severe droughts will be long lasting.

    It is imperative that our leaders map out a strategy that will 
focus efforts on water reuse, water storage, water distribution, water 
conservation and water education. This can only be accomplished with 
well-funded programs dedicated to

        <bullet>  Research which will give birth to technologies that 
        will help us increase our water efficiency, and to

        <bullet>  Practical implementation of this research.

    All the research and all the technology in the world, however, will 
not make a dent in our water issues if we do not educate and inform the 
public on the need for conservation and the methods which they can 
adopt to meet conservation goals.
    The objective of this bill is a major campaign to educate the 
individual states, the water districts and the general public on the 
manner in which water resources are to be utilized and preserved. The 
English born biologist and philosopher, Herbert Spencer said ``The 
great aim of education is not knowledge, but action.'' We must take 
action and we must encourage our constituents to take action required 
to become totally committed to the wise use of our water resources.
    Water development, management, and stabilization are the major 
responsibilities of a water district. Water conservation, on the other 
hand, is the responsibility of each and every citizen. This message 
needs to be driven home time and time again. It is imperative that we 
all come to understand that water conservation is not ordinance driven, 
but morally driven. We here in this room have a moral obligation to 
take the lead in conserving this great resource. Education of the 
public will give them the tools to follow suit. Thank you.

                    Biography for Ronald W. Thompson

    Ronald W. Thompson is a member of the Utah State Bar and is the 
District Manager of the Washington County Water Conservancy District in 
St. George, Utah. He graduated from Brigham Young University in 1971 
with a degree in accounting and received his law degree from the 
University of Utah in 1974.
    Mr. Thompson is a past President of the Utah Water Users 
Association, member of Board of Directors and Chair of the Resolutions 
Committee for the National Water Resources Association, and Vice 
Chairman of the Resolutions Committee of the Colorado River Water 
Users. He is also a member of the Executive Committee of the Colorado 
River Water Users, is the President-Elect of the Colorado River Water 
Users, and is the Utah representative for the National Water Resources 
Endangered Species Task Force. Mr. Thompson serves on the Utah Water 
Development Coalition and also currently serves on the Board of 
Directors of the St. George Canal Company and the Washington Fields 
Canal Company.

    Chairman Lampson. Thank you, Mr. Thompson. Mr. Clerico.

    STATEMENT OF MR. EDWARD A. CLERICO, PRESIDENT, ALLIANCE 
                         ENVIRONMENTAL

    Mr. Clerico. I have taken a risk here in a brief 
presentation of showing you some visual images. I think is 
segues nice with the discussion we have just had, and I notice 
the bottle of water that we all have at our stands, and I ask 
you--recently, it was in the news how our tap water is equal in 
quality to bottled water, something the industry was really 
glad to hear. We knew that all along, but it made me stop and 
think, then, why are we flushing our toilets with it? And it is 
something I really want you to ponder, because the work I have 
done over the years has demonstrated that there is so much more 
that we could be doing that could be better. So I have invented 
the dual-flush toilet, which I said is the quintessential dual-
flush toilet for America, but it recommends the fact that if 
you really were given a choice, would you flush your toilet 
with bottled water? Well, the answer is no, and the fact is we 
really don't have to be because there is many other choices 
available.
    For the past 20 years, I have been working hard in this 
industry, and the progress has been good, but the progress has 
been slow due to the lack of innovation within the industry 
itself, and that is part of this conversation today around the 
research. I have built 30 water-reuse systems in that time 
frame, and the conservation aspect of these systems range from 
50 percent reduction in use for residential to 95 percent 
reduction in use for commercial and institutional facilities.
    Well, as a result of this work, this is a diagram that I 
don't know that we have the time to spend here, today, talking 
about, but essentially what we are doing is we are mining 
sewage and we are mining storm water, treating it, and reusing 
it for non-potable purposes within buildings. And there is a 
lot of this going on, relating to the green-building industry. 
In the green-building industry has really played a leadership 
role in innovation, but if we had the research behind that, I 
think the country as a whole could step up, and we are seeing 
other countries go faster and beyond us, and many of the 
products we are buying are coming from overseas because the 
American manufacturers aren't supplying them. But in essence, 
this diagram represents how you would take wastewater from 
within a building or within a neighborhood, treat it, and then 
return it directly back for flushing toilets, for laundry and 
for cooling towers. And we are getting tremendous results from 
the systems that we have of this nature, and the economics are 
actually playing out favorably, now, today, that there are no 
construction grants programs anymore, and the municipalities 
are starting to pay full price for the water and wastewater 
facilities. Now we are cost competitive.
    There are many advantages. It is eliminating long 
collection lines and distribution pipes, which are inefficient 
and which leak and which are expensive. It help us mitigate 
existing problems and combine sewer overflow. And we are 
removing nutrients, so that we are actually doing a better job 
of protecting the environment while we are saving water. It is 
not just about water, it is about the environment and pollution 
in general.
    The drawbacks are when you do this on a small scale, you do 
lose some economy of scale. You do require dual plumbing, 
because now you have non-potable water supplying fixtures as 
well as potable water. I tell you the plumbers union doesn't 
have a problem with this because it actually makes for a good 
economy. And when you start thinking about this whole green-
building movement, there is a whole economy here related to 
what could happen if we were to innovate and move forward more. 
And the small systems are generally not subsidized, so we don't 
have the same level playing field economically because we are 
competing with subsidized municipal facilities.
    Now, the New England Patriot's Stadium is one I put up 
because it was a story that came in 2000. It raised the 
awareness around what is possible with water reuse. The stadium 
has a complete water reuse system in it. It saved the stadium 
for the Town of Boxborough. They were going to leave if they 
couldn't solve this problem. It has a tremendous economic 
advantage to the root-one corridor if you have ever been up to 
that area of New England, so they could have some vibrancy, 
even through their water resource was diminished, in 
compromise. And that led them to the green-building era in 
Manhattan when in Battery Park City, they decided they were 
going to do very innovative water reuse programs as part of 
urban development, and we now have four operating high-rise 
buildings in Manhattan that are residential. We have three 
either in design or construction. The Solaire was the first. It 
was America's first gold-rated LEED building for a residential 
high-rise.
    Over three years of data-taking, we see a 48 percent 
reduction in water use by comparison to a sister, modern 
building, using modern plumbing fixtures, and a 56 percent 
reduction in wastewater discharge. The difference between the 
two is we are evaporating a lot of the wastewater in the 
cooling towers, and once you start looking at the opportunities 
to reuse water, cooling is a big aspect. The surface hasn't 
been scratched yet, and there is lot of need for research 
there.
    And as we look at these facilities, we are looking down 
from the roof on a park that is irrigated with reuse water, on 
a green roof that is capturing rainwater and reusing it within 
the building, and on the buildings themselves, you get a sense 
of how this can be tucked into very, very high density, as well 
as very rural areas. It is not about where you do it. It is 
just a matter of the fact that you can do it if you have the 
right momentum behind you.
    This picture shows you how we build systems right into the 
foundations of buildings. The membrane technology that Dr. 
Daigger referred to has really helped us advance quickly, but 
there is so much more distance to go in terms of our research 
around energy consumption and practical applications to 
optimize these systems. We can't take another 20 years to 
advance this. We need to do something on a much more 
accelerated basis to be successful.
    We have found that a scale of about 50,000 gallons a day, 
we are actually economical. We are more economical today than 
in New York City, continuing with city services. The City has 
recognized the advantage here, and they have given us an 
incentive for water reuse. It is a 25 percent reduction in our 
water and wastewater bills, and this graph represents a 
building. The yellow line would be if you did water reuse, and 
the blue line would be if you were using city services. That 
would be for a large, 10 million-square-foot facility, which 
some of the neighborhoods in New York City are, so you can see 
there is an economic advantage. You go to a smaller scale 
system, the economics are okay, but they are not quite as 
attractive, and the City is now considering doing a capital-
incentive program to incentivize developers to do more of this 
because it hasn't cost the city anything and they are 
benefitting from reduced demand on their water supply and on 
their wastewater infrastructure, and they realize that in the 
future. The City intends to add one million people and 750,000 
jobs by 2030. And in the course of doing that they need to 
remove 60 million gallons a day of water consumption, which is 
a five percent reduction, so they know that they need 
innovative solutions like this if that is going to happen. And 
it is interesting that this is going to be happening in New 
York City. It can happen anywhere where water is a concern and 
where environmental discharges are a concern. It just doesn't 
have to be a one-city solution.
    Research is an important component of this. As I mentioned, 
the energy-water nexus needs to be researched further so that 
as we develop our new systems, we are affective in terms of how 
we manage our energy relative to our water management. There 
are many new applications. I had mentioned cooling towers. We 
have interesting conversations with cooling tower 
manufacturers. We could sure use some university support around 
what could be done better to integrate the various functions of 
how we use water with how we can treat our water for reuse.
    And that is what I have to tell you today. Thank you.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [The prepared statement of Mr. Clerico follows:]
                Prepared Statement of Edward A. Clerico

                  The Future of Water Reuse in America

    Thank you very much for the opportunity to testify before you this 
afternoon on the proposed ``Water-Use Efficiency and Conservation 
Research Act.'' My name is Edward Clerico and I am President of 
Alliance Environmental and I have designed, built, operated and owned 
water reuse projects for the past 20 years. My recent work in Manhattan 
on a number of water reuse projects in high rise residential buildings 
has attracted considerable attention from interests across the globe. I 
am here today to briefly tell you of the significant success we have 
achieved with water reuse and how it offers tremendous opportunity for 
the future and how important it is to advance research on this matter.

Overview

    Water reuse is not new to America and there are a number of well 
known large scale reuse projects that are mostly in the arid regions 
and they almost exclusively use treated wastewater effluent for 
irrigation purposes. Arguably, if this causes the irrigation of 
additional arid land, it does not offer any real environmental benefit 
but if it replaces existing irrigation supply, it does reduce the 
demand on water supply. Such water reuse projects are accepted by the 
public and they are beneficial, but the benefits are mostly seasonal 
and only of significant value where irrigation is in high demand.
    Direct water reuse is a more beneficial and innovative approach 
whereby wastewater is treated and reused for multiple non-potable 
purposes inside and outside of buildings. This has been accomplished 
mostly on a distributed system basis where small to medium size 
facilities are built on-site to provide service to a specific customer 
or customer group. Typical uses are for toilet flushing, cooling tower 
make up and laundry uses in addition to landscape irrigation. There are 
30 such direct water reuse projects in the Northeast and they span a 
period of 20 years. Most recently, such projects have been built in 
urban areas where an abundant supply of wastewater can be readily 
minded for treatment and reuse. The benefits of this approach are 
numerous:

        <bullet>  48 percent to 95 percent reduction in water 
        consumption by comparison to typical modern buildings

        <bullet>  60 percent to 95 percent reduction in wastewater 
        discharge

        <bullet>  Reduced environmental impact from Combined Sewer 
        Overflows (CSO)

        <bullet>  Reduced nutrient and chemical loads to water bodies

        <bullet>  Consistent performance year round that is not 
        dependent on geographical location or season

        <bullet>  Economical operations that use the waste as a 
        resource, provide treatment at the source and yield a favorable 
        Life Cycle Cost and Life Cycle Assessment

        <bullet>  Economical asset management that avoids the need for 
        large capital projects associated with conventional centralized 
        water and wastewater systems

        <bullet>  The opportunity for improved energy efficiency 
        relative to water and wastewater treatment systems and water 
        movement in general

        <bullet>  The opportunity for improved nutrient management for 
        further environmental benefits.

    By way of example, for a mixed use (residential--commercial--
office) development it is very possible that the non-potable water 
reuse demands would nearly match the wastewater generation such that 
wastewater discharge can be almost entirely eliminated. Such dramatic 
results are not widely recognized and embraced within the water and 
wastewater industries for many reasons, mostly due to lack of 
understanding and difficulty adopting innovative models. There is a 
strong need for education via demonstration projects as well as 
research to advance knowledge within this field so that the centralized 
water and wastewater industry can enter this new paradigm.

Introduction

    It has been reported that it takes 1,200 gallons of water per 
capita per day to operate the U.S. economy but the human population 
only consumes less then one gallon of water per capita per day. It is 
clear from this fact that water reuse offers tremendous opportunity to 
reduce our impacts on water resources because theoretically all but the 
one gallon per capita per day can be readily reused. Water reuse is not 
new, but it is not well recognized for the potential benefits that it 
offers because the entire delivery mechanism for water and wastewater 
services in America; regulatory, financial, legal, business and 
physical assets, are not structured to embrace the water reuse 
approach. Recent experience with water reuse projects in urban, 
suburban and rural settings suggests that these hurdles can be readily 
overcome with new technology and business delivery mechanisms that 
deserve widespread consideration because they have proven significant 
environmental benefit.
    Throughout the world, we are faced with a situation wherein our 
water resources are being depleted and destroyed as a result of:

        1.  Growing population and pursuit of better living conditions 
        that include abundant use of water for many lifestyle demands

        2.  Increasing discharge of new products that include more 
        complex chemical constituents that are not readily removed by 
        traditional wastewater treatment

        3.  Growing anthropogenic pressures on water resources from 
        many activities that have indirect impacts.

    To date, we have approached the solution of all our water resource 
problems by innovating and advancing the supply and discharge 
mechanisms originally created by the Romans. This Romanesque approach 
relies upon the natural water cycle to provide the dilution and 
ultimate purification that protects human health. Unfortunately, what 
worked for the Romans is no longer suitable for modern humanity and we 
must take the necessary steps to establish a new perspective. The good 
news is that there are robust and well proven solutions available 
today.
    If one takes a high level view our current conventional methods of 
water resource management, the problem becomes readily evident. 
Consider the following abbreviated technical description which 
represents our current approach to water supply and water resource 
management:

        1.  Supply--Surface and ground water provide our source of 
        supply. These supply sources are compromised by many influences 
        and are generally in need of treatment to remove contaminants 
        and to provide disinfection from pathogens. Not all 
        contaminants and pathogens are easy to identify so we 
        constantly search for a better understanding of how to best 
        protect our public health from many unknowns.

        2.  Storage--Most population centers demand more resource then 
        can be readily supplied by the naturally available resource 
        during dry weather periods, so we construct large reservoirs 
        and dams to hold water to make up for natural deficits that 
        would occur. This water impoundment approach itself has a 
        number of detrimental affects on the environment and the water 
        budget overall, but it is necessary and unavoidable in most 
        cases.

        3.  Treatment--The extracted supply is treated, disinfected and 
        readied for distribution. We strive to have this water as 
        pristine as possible and recent testing has proven that it 
        really is as ``pure as bottled water'' in almost all respects 
        and cases.

        4.  Distribution--The treated supply is distributed via 
        thousands of miles of pipes via pumping, pressure controls and 
        intermediate storage tanks. This infrastructure is extensive, 
        complex and is generally deteriorating and in need of repair. 
        Pipe leakage generally accounts for a loss of about 15 percent 
        of this rather costly resource.

        5.  Use--This ``bottled water quality'' supply is then brought 
        to our homes and business where a tiny percentage is consumed, 
        but most is used for flushing toilets, bathing, washing dirty 
        laundry and dishes, cooling system supply in larger buildings 
        and watering lawns and landscaping.

        6.  Contamination--As a result of our use, this supply is 
        highly contaminated with feces, urine, chemical cleaners and 
        disinfectants, dirt, unused products, industrial byproducts, 
        food waste, grease, oil and a long list of things that go down 
        the drain such as pharmaceuticals, personal care products, 
        make-up, insect repellent and more.

        7.  Collection--In all urban and most suburban cases, this 
        contaminated wastewater is then collected by another set of 
        complex and cumbersome pipes and pumps that are also in need of 
        maintenance and upgrading. Most of these pipes allow 
        groundwater and storm water to leak into the sewage 
        (infiltration) and some allow untreated sewage to leak out into 
        the ground (exfiltration). In most older urban areas and in far 
        too many newer suburban areas these piping networks are 
        influenced by storm water flows and groundwater such that raw 
        sewage routinely overflows during wet weather thereby 
        contaminating the very source that supplies our drinking water.

        8.  Treatment--The collection and transmission system then 
        takes this highly contaminated water to a central treatment 
        plant where technology has been applied to treat and remove the 
        contaminants to the greatest degree possible. This task becomes 
        very difficult because some contaminants are difficult and 
        expensive to remove and these plants are in need of upgrades 
        and cannot often comply with their requirements and customers 
        don't want to pay for the required treatment plant 
        improvements. There is also additional complication from the 
        fact that new contaminants appear routinely as a result of new 
        products that enter our market place and end up down our 
        drains.

        9.  Discharge--These complex treatment systems do the best they 
        can with the money and technology available and once fully 
        processed, the treated water is discharged back into the water 
        bodies that serve as the source of supply. Often, downstream 
        neighbors remove this same water and begin this cycle all over 
        again, in many cases with only hours of travel time.

    If I were to suggest to you that you should flush your toilet with 
bottled water you would appropriately respond that this would be a 
crazy thing to do. However, this is essentially what we do under our 
current water and wastewater infrastructure paradigm. The above 
scenario could readily be condensed into the following brief non-
technical description:

         We utilized large scale public infrastructure to produce 
        ``bottled water'' that we then use to flush our toilets and 
        into which we dispose of our wastes, which we then send off for 
        treatment and discharge into our water bodies, where henceforth 
        we send it downstream for our neighbors to extract once again, 
        produce ``bottled water'' and start the cycle all over again.

    When population density was low and waste sources were mostly 
biodegradable natural contaminants, this scenario worked because Mother 
Nature provided the dilution, disinfection and purification needed to 
buffer the dangers. Now that population densities are much greater and 
the contaminants are much more difficult to treat, this scenario makes 
no sense and in the long-term must be replaced or supplemented by a 
more modern approach.
    Direct non-potable water reuse\1\ offers the alternative of 
creating a man-made water cycle that separates the waste flow from the 
drinking water supply source and it provides high quality ``non-
potable'' water for uses that only involve waste disposal and do not 
threaten human health via consumption. Technological advancements allow 
small scale applications of treatment that can be placed immediately at 
the customer's location such that the wastewater can be collected, 
treated, stored and reused without traveling long distances and without 
the associated large capital investment in infrastructure. Due to the 
nature of this ``man-made water cycle'' the level of treatment is very 
high and the environmental impact is greatly reduced. The end result of 
distributed direct water reuse is a dramatically reduced demand on 
potable water supply, wastewater treatment systems and the water 
environment, plus elimination of most of the intermediary 
infrastructure required in conventional systems. It is a win-win 
throughout the water supply chain.
---------------------------------------------------------------------------
    \1\ Non-potable water reuse refers to water that is produced to a 
quality that is safe for human contact, i.e., swimming water quality, 
but not suitable for drinking. Direct non-potable water reuse in this 
report never refers to direct reuse for consumption purposes. Direct 
reuse for consumption purposes would be objectionable to most Americans 
today even though technology now allows this as a safe practice as 
evidenced by new systems that are operating in Singapore.
---------------------------------------------------------------------------

Brief History of Distributed Water Reuse Systems and Performance

    This historical review is important as a means of demonstrating how 
distributed water reuse systems are already providing robust and safe 
service to a diversified range of customers over a significant period 
of time. The concept is not new, but as time has progressed, each new 
system has achieved improved results and more significant benefits. The 
concept is still very young with regards to development potential and 
there is a strong need for public education and research to build upon 
this successful start. Whereas it seems like we have come so far, in 
reality we have only begun to reveal the possibilities of water reuse 
that lie ahead.
    The approach to distributed water reuse, sometimes referred to as 
wastewater mining is relatively simple, but it incorporates 
sophisticated advanced methods of treating wastewater such that it is 
completely safe and suitable for non-potable reuse. The schematic 
presented below represents the current state-of-the-art relative to 
distributed water reuse systems. The membrane bio-reactor has become 
the standard biological treatment method utilized presently because it 
offers several advantages--small footprint, robust performance and 
automation capabilities. As depicted in this schematic, storm water can 
also be incorporated into the water reuse scheme depending on site 
characteristics and appropriateness of this additional source of 
supply.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the mid-1980's there were a rash of sewer-bans throughout the 
northeast that resulted from problems associated with aging wastewater 
treatment plants. This was also an era of economic boom that frequently 
created pressure to build new developments in areas where public sewers 
did not exist or where they could not accommodate any additional flow. 
This drove developers to seek alternative solutions and as a result of 
this economic driver, the first water reuse system in this region was 
built in 1987 for a pharmaceutical company in a suburb near Princeton, 
New Jersey. This 350,000 SF office research facility employed over 400 
workers and by recycling treated non-potable water to flush toilets, 
produced a wastewater discharge that was slightly more then a single 
family home. The results were so astounding that others soon followed 
suite.
    By the late 1990's there were 20 similar systems built in the 
Philadelphia to Boston region and the applications represented a wide 
array of commercial, office, public buildings and one baseball stadium. 
Several schools were included in this portfolio which included children 
ranging in age from preschool to high school. Table 1 below provides a 
summary of these systems by age and type.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 2000, a water reuse system was built for Gillette Stadium, home 
of the New England Patriots, NFL Football Team located in Foxboro 
Massachusetts. This system raised the awareness of many interested 
parties because it not only provided a means for the Town of Foxboro to 
accommodate a new stadium, it also allowed for a non-potable water 
reuse system that could provide the needed water and wastewater service 
to the Route 1 commercial district that is a vital component of the 
town's economic growth plans.
    2000 was also the beginning of the Green Building movement in 
America and new development projects certified by the United States 
Green Building Council were now gaining attention. In New York City, 
the Battery Park City Authority had adopted strict environmental 
standards for the development of an area of southern Manhattan known as 
Battery Park City which runs along the Hudson River waterfront. 
Developers in this area embraced these environmental standards while 
also adhering to the USGBC LEED (Leadership in Energy and Environmental 
Design) program. Under these dual environmental programs water 
conservation and reuse became a key aspect of residential developments 
that aimed to achieve new levels of environmental excellence and 
demonstrate new innovations in sustainable urban development.
    The first building, The Solaire, was a 293-unit residential high-
rise that broke the barrier and became the first building to 
incorporate direct water reuse in a residential setting. This project 
went on to be awarded LEED Gold certification by the USGBC and is 
widely recognized for its environmental achievements. After beginning 
operation in 2003, three years of water flow data clearly illustrated 
that the building consumed 48 percent less water and discharged 60 
percent less wastewater then a comparable modern residential building 
in New York City. Water reuse at The Solaire incorporated toilet 
flushing, cooling tower supply and irrigation of the neighboring Tear 
Drop Park.
    Subsequently, a number of new residential buildings in Manhattan 
have utilized this approach and there are currently four systems 
operating and there are expected to be a total of seven similar 
residential water reuse systems by 2009. The systems simply mine sewage 
and treat it to produce a high quality non-potable supply source. As 
the bar continues to rise within this innovative green building market, 
new buildings continue to strive for even higher objectives. Projects 
now under construction include laundry supply as an additional use for 
reuse water and thus the performance results are expected to be even 
more impressive in the future.
    An unanticipated benefit from this urban application of distributed 
water reuse is the fact that the reduced waste discharge to sewer lines 
helps to mitigate the affects of combined sewer overflows via lower 
flows and lower waste loads. Recognizing the public benefit gained from 
this approach the New York City Department of Environmental Protection 
implemented the Comprehensive Water Reuse Program in 2004 that offered 
building owners a 25 percent reduction in City water and sewer charges 
for water reuse systems that reduced demand by 25 percent or more. This 
incentive helped level the economic playing field between the privately 
funded water reuse systems and the publicly funded City water and sewer 
system. Currently, a capital incentive program for water conservation 
and reuse is under consideration to enhance this initiative further.
    As per the objectives of PlaNYC 2030, the City expects to add one 
million residents, 750,000 jobs and accommodate more guests while 
reducing water and sewage flow by 5.5 percent or 60 million gallons per 
day. This ambitious goal will require a number of special measures to 
reduce and reuse water, with distributed water reuse being one 
component.

Benefits of Distributed Water Reuse

    There are numerous benefits to the concept of distributed water 
reuse systems. They are highlighted in the bullets that follow:

        <bullet>  Water reuse in general reduces the demand on water 
        supply resources and facilities on a gallon per gallon basis. 
        Distributed water reuse systems also reduce the burden on 
        centralized wastewater facilities similarly.

        <bullet>  Distributed water reuse systems utilize wastewater as 
        a resource. Because the wastewater flow increases in parallel 
        to the increase in water demand, there is no need for very 
        large storage reservoirs to account for droughts. The supply 
        and demand functions are closely linked whereby the resource 
        flow increases while the supply demand increases and vice 
        versa.

        <bullet>  Distributed water reuse systems offer the ability to 
        separate wastes from the natural water cycle by creating a man-
        made water cycle that captures and treats wastewater and 
        supplies non-potable water for reuse.

        <bullet>  Distributed water reuse systems are located at or 
        very near the customer, thus there is very little need for 
        collection and distribution piping. In many cases, both rural 
        and urban, the actual water reuse system is located within a 
        customer's buildings and there is no need for any outside 
        collection and distribution system. As a result, the huge 
        problem of infiltration and exfiltration are completely 
        eliminated.

        <bullet>  Because the wastewater is treated in one treatment 
        process that produces non-potable water, there is only one 
        treatment mechanism to handle both the wastewater and the non-
        potable water supply needs as opposed to separate wastewater 
        treatment and water supply treatment facilities typically found 
        in conventional centralized systems.

        <bullet>  In areas where the sewage is mined from a public 
        sewer system, distributed water reuse reduces both the flow and 
        waste load on the collection systems and the environment and 
        thereby helps to mitigate combined sewer overflows and sanitary 
        sewer overflows conditions.

        <bullet>  Because the reuse water must meet high quality 
        characteristics to be suitable for reuse, it is treated in a 
        manner that generally removes large quantities of nutrients 
        that would mostly pass out into the environment in conventional 
        facilities. This nutrient control aspect offers significant 
        environmental benefit to the local water bodies that would 
        normally have to absorb these nutrients.

        <bullet>  For added performance efficiency, distributed water 
        reuse systems can also incorporate storm water as an additional 
        water source where climate and site conditions warrant.

Drawbacks of Distributed Water Reuse

    The drawbacks of distributed direct water reuse systems are few, 
but they present important obstacles to more widespread application.

        <bullet>  Water reuse requires a dual plumbing supply system, 
        one for the potable supply and one for the non-potable supply, 
        thus increasing the plumbing costs within buildings.

        <bullet>  Distributed water reuse systems are generally at a 
        small to moderate scale and thus lose the economy of scale 
        benefit realized by large capital projects. This drawback seems 
        to be mitigated once the distributed water reuse system reaches 
        a size of approximately 500,000 gallons per day of capacity 
        which represents a neighborhood scale.

        <bullet>  Distributed water reuse systems are not subsidized 
        with public funding as are centralized systems thus the costs 
        to the customer are higher. Incentives such as that in New York 
        City help to mitigate this difference.

        <bullet>  There is a general lack of understanding of 
        distributed water reuse systems in the professional community 
        and this approach is not routinely considered in water resource 
        planning efforts except on special Green Building type projects 
        or where public water and wastewater infrastructure does not 
        exist. There is a strong need for public education and research 
        to document the nuances and benefits of distributed water 
        reuse.

Economics of Distributed Water Reuse

    The economics of water and wastewater is not a simple matter and 
there are many financial influences that are difficult to fully assess. 
It is clearly recognized that via grants, low interest loans and other 
forms of public subsidies, U.S. residents generally do not pay the true 
cost of water and wastewater services and this creates undesirable 
consequences such as wasteful usage and overall lack of respect. Full 
cost pricing would change many behaviors and certainly influence future 
planning for water resource management such that water reuse would 
become more attractive.
    The water reuse systems described herein have all been built with 
private funds and the capital and operating costs are not directly 
subsidized in any way. New York City created an operating incentive in 
2004 known as the Comprehensive Water Reuse Incentive Program which 
provides a 25 percent reduction in City water and sewer bills for 
buildings that realize a 25 percent reduction in water consumption by 
comparison to a base building. This creates a dual level customer 
charge system whereby there is a conventional rate and a reduced 
``Green Rate'' for facilities that include direct water reuse (see 
Table 2). To my knowledge, this is the first indirect water reuse rate 
incentive in the U.S.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The capital cost of distributed water reuse systems varies with 
site conditions and size of the system. From experience, it appears 
that once the system reaches a size of approximately 500,000 gallons 
per day, it approximates the cost for municipal systems from a capital 
perspective at least in suburban and urban areas. In rural areas, the 
cost for conventional systems might be lower if the value of land is 
cheap. Figure 1 illustrates the variation in water reuse system capital 
cost as a function of system size.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    From an operating perspective, costs also improve as system size 
increases, again with 500,000 GPD being the target operating size. 
Figure 2 illustrates the operating cost range based on New York City 
cost data.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    New York City water and sewer rates are just slightly above the 
mean for 25 large cities surveyed.\2\ Atlanta ranks at the top with the 
highest rates and Chicago at the bottom with the lowest rates. The cost 
effectiveness of water reuse is therefore a local matter that must 
reflect local costs structure and conditions. With New York 
representing the mean, it provides a good test case for comparison with 
other areas around the U.S. Figure 3 illustrates the operating cost 
savings for approximately 10 million square feet of mixed office and 
residential use comparing the conventional approach vs. the water reuse 
approach. As indicated in this graph, water reuse in New York City is 
economical presently and becomes increasingly advantageous in the 
future. This would represent the optimum case under current New York 
City cost structure.
---------------------------------------------------------------------------
    \2\ Reference--New York City Department of Environmental 
Protection, New York City Water Board Public Information Regarding 
Water and Wastewater Rates, April 2007--commonly known as the Blue 
Book.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 4 presents the same comparison for a smaller residential 
building that would include approximately 300 units. This cost 
information was derived from operating data at The Solaire, the first 
building of this nature. Ability to achieve higher levels of 
optimization would improve this cost picture somewhat, but even at this 
level, the long range picture illustrates that the distributed water 
reuse approach is more cost effective.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    From an operating cost perspective it has been demonstrated that 
water reuse in an urban setting such as New York City is cost effective 
in the short- and long-term. From a capital cost perspective, water 
reuse reduces the demands on both water supply and wastewater treatment 
infrastructure and the costs are reasonable when comparing the 
potential offset in future capital spending. The difficulty with the 
current structure in New York City is that developers are presently 
funding the capital costs themselves when in many cases they are not 
the recipients of the future operating savings. There is therefore no 
incentive for the developers to implement water reuse other then for 
the ability to achieve new green building standards. New York City is 
currently reviewing this inequity and is considering a capital 
incentive program that would compensate the developers accordingly. If 
this is implemented, the playing field between distributed water reuse 
and conventional centralized water and wastewater will be nearly 
leveled.
    There are however, other considerations that reach beyond simple 
economics. Distributed water reuse systems offer an overall lower 
environmental impact so one would expect the costs to be greater, but 
at the moment there is no monetary consideration offered for this 
benefit.
    Energy consumption is another area of water resource management 
that is not incorporated into this analysis. It is also now well 
recognized that there is a strong connection between energy consumption 
and water consumption, often referred to as the Energy/Water Nexus, 
which must be addressed in our future planning for both water and 
energy management. It is reported that U.S. citizens may indirectly use 
as much water turning on the lights and running electric appliances as 
they directly use flushing toilets and feeding water use appliances 
(see http://www.sandia.gov/energy-water/nexus<INF>-</INF>overview.htm). 
Direct water reuse offers many advantages from a water supply and 
environmental waste load perspective, but the energy aspects are not 
yet adequately quantified. The relationship between water and energy 
becomes even more complex as water reuse is incorporated into HVAC 
systems as a means of saving water, but at the same time improving 
energy efficiency.
    According to the National Electric Testing Laboratory (NETL) 80 
percent of the cost of treating, processing and pumping water is from 
energy (ref--Bajura 2002). Anecdotal information from existing 
distributed water reuse systems suggest that this electrical component 
is much lower (possibly as low as 40 percent) but there needs to be 
thorough investigation into the actual KW/gallon for both the 
conventional and water reuse approaches so that this relationship is 
well understood and incorporated into future water resource planning 
efforts.

Conclusion and Summary

    Distributed water reuse systems must become a key aspect of our 
future water resource management programs because they offer so many 
advantages and only few drawbacks. Centralized systems will continue to 
serve as the backbone of water infrastructure for many years to come 
because so much infrastructure of this nature already exists, but 
future planning must include water reuse as a key component and must 
consider how these two approaches can be jointly optimized. Distributed 
water reuse systems offer a unique and compelling alternative to 
supplement and relieve the infrastructure that now exists and we must 
learn how to incorporate this approach most effectively. It will take a 
dedicated education, outreach and research effort for this to come to 
fruition.
    Via water reuse, both distributed and centralized, we can 
accommodate a great deal of population growth and support an improved 
standard of living while providing better environmental protection. 
However, there exists a strong need to bring this new alternative to 
the public forefront and to fully thresh out the unique characteristics 
so as to build confidence and understanding.
    From my perspective as an innovator I believe it is very helpful 
and valuable for the Federal Government to lead the way with more 
research in this area. It is amazing and puzzling to think about how 
difficult and slow our progress with water reuse has been over the past 
20 years by comparison to other technology driven industries. Water is 
so vital for our survival, but we fail to give it the urgent attention 
needed to preserve the future health and well being of our society. 
Water reuse offers tremendous promise but it requires government 
support to advance more aggressively. There are many specific areas of 
research that would improve water reuse overall. Below are a few 
suggestions:

         1.  Create visible public demonstration projects of 
        distributed water reuse that provide opportunities for 
        education and research

         2.  Develop rigorous standards for non-potable water reuse

         3.  Research the energy consumption aspects of water reuse vs. 
        conventional approaches

         4.  Research methods for advancing water reuse into other non-
        potable uses for improved efficiency

         5.  Research more advanced forms of reuse whereby nutrients 
        are separated for nutrient reuse apart from water reuse

         6.  Develop improved membrane filtration technology to provide 
        longer life and lower operating costs.

         7.  Improve aeration methods to reduce power consumption in 
        the biological digestion process

         8.  Develop methods of passive treatment to reduce power 
        consumption and operating costs

         9.  Advance the understanding of the uses of ozone and 
        ultraviolet light to destroy macro molecules

        10.  Optimized disinfection methods to protect public health 
        and allow more extensive uses for non-potable water.

    Thank you.

                    Biography for Edward A. Clerico
    Ed is a licensed professional engineer and licensed wastewater 
operator in NY, NJ and PA and is a LEED Accredited Professional. He 
holds BS and MS degrees from Rutgers University in Bio-Ag Engineering.
    Ed was the founder and President of Applied Water Management, Inc., 
before holding executive roles with American Water as Technical 
Development Director and VP Strategy. Presently he operates his own 
consulting business known as Alliance Environmental that focuses on 
Green Building Concepts.
    Ed pioneered the concept of Community On-site Wastewater Systems--
commonly known as COWS--and developed the first water reuse systems in 
the northeast region. He advocates for creating balance within our 
environment through innovation and environmental stewardship.

    Chairman Lampson. Thank you, Mr. Clerico. Ms. Little.

  STATMENT OF MS. VAL L. LITTLE, DIRECTOR, WATER CONSERVATION 
 ALLIANCE OF SOUTHERN ARIZONA; PRINCIPAL RESEARCH SPECIALIST, 
COLLEGE OF ARCHITECTURE AND LANDSCAPE ARCHITECTURE, UNIVERSITY 
                           OF ARIZONA

    Ms. Little. Thank you Chairman Lampson, Ranking Member 
Inglis, and Members of the Subcommittee. Thank you for the 
opportunity to comment on Research to Improve Water-Use 
Efficiency and Conservation. This hearing could not be more 
timely, and the Water CASA members I represent here today 
appreciate your leadership and your interest in the efficient 
uses of the water supplies throughout the Nation.
    I am going to begin with a very direct statement: the 
cheapest source of what is that which don't have to find, buy, 
treat, transport, or deliver. That is sort of a credo that 
Water CASA works around. Regarding comments on R&D needs to 
enhance water-use efficiency and water conservation, first of 
all, we believe that this committee should use the over 200 
members of the WaterSense Program, their program partners, to 
assist the EPA on prioritizing the specific national needs in 
the area of applied research.
    Secondly, we believe that sound decision-making requires 
that national policy-makers know which areas of the country or 
which demographic profiles have the highest potential for 
increased water-use efficiency, and also which programmatic 
efforts or processes used in these target areas will generate 
the most bang for the buck. Dollars are scarce, and we have got 
to be very rigorous in where those dollars are allocated.
    Research can provide those answers. Members of Water CASA 
support all of the technological efforts to save water, but we 
readily acknowledge the limits to technology. Human behavior 
factor can easily trump any technical strategy we devise 
through the inadequate monitoring, management, and maintenance 
of the technological tools. In general, water-conservation 
technologies are far ahead of our ability to educate and train 
the users and the consumers in the effective use of these 
tools. A national effort to lessen this disparity is essential.
    Water CASA strongly supports research efforts in the water-
conservation arena that offer actual and quantifiable results, 
rather than projected or modeled assumption. Wise decision-
making requires it.
    Regarding EPA's WaterSense Program, this is an effective 
effort that Water CASA has supported since inception, counting 
ourselves among the founding promotion partners. 
Specifications, licensing, labeling, and publication are all 
great tools for us in the field, so we say do more, do faster.
    Additionally, Water CASA will back any increase in training 
and certification efforts for all professionals in the use of 
the appropriate technologies touted by WaterSense. Again, the 
efficiency to be gained by our technologies is limited by our 
ability to have qualified and capable humans monitoring, 
managing, and maintaining them.
    Regarding Representative Matheson's draft legislation, my 
eyes lit up when I saw the word greywater. Greywater is 
something we work a great deal with in Southern Arizona. The 
potential water savings to be had from residential greywater 
reuse is an estimated 35 gallons per person per day, which 
translated easily into 50,000 gallons per household per year. 
It is far too compelling a water source to ignore. National 
standards and regulations regarding the reuse of greywater 
generated in residences should be promulgated, much as we have 
done in Arizona.
    As with greywater, the potential savings to our potable 
water supplies through maximum usage of harvested rainfall is 
astounding. In urban areas of Pima County, the amount of 
rainfall that could be captured from rooftops, paving 
landscaped areas and bare ground is equivalent to over 75 
percent of the water delivered to that same urban area by the 
water supplier.
    An Arizona model of providing incentives to increase the 
use of household greywater and the harvesting of rainwater can 
form the basis for national policy. These incentives can be 
tailored to motivate homebuilders, prospective homebuyers and 
existing homeowners as well. Water CASA agrees that water 
conservation should certainly be a national goal, and we 
welcome any opportunity to work with, not only the EPA, but 
with all federal agencies that have water-related mandates. We 
support workshops to offer input to EPA on what the national 
water-use efficiency goals ought to be and establishing an R&D 
roadmap to meet these goals.
    Finally, a few suggestions that aren't directly R&D 
related. We believe there should be a national goal of 100 
percent metered water use in this nation. We believe that all 
water providers should be required to have some form of 
conservation rate structure, whether it is a seasonal rate 
differential, a time-of-day pricing, inclining block rate, or 
surcharges tied to usage. We think that all water suppliers 
should be required to keep their system leakage below 10 
percent of the water they deliver. And we would like to see the 
speed-up of the change-out of pre-1990 toilets that are high 
water using in existing structure thought the use of 
incentives, and phase in a national requirement to retrofit to 
HET toilets at the time of resale, approved additional plumbing 
standards that reflect structured plumbing-system components 
that save considerable water and energy as well.
    Today, the public is paying attention to water issues as 
never before. A national public awareness campaign is needed 
and needed now. U.S. federal lawmakers have the opportunity to 
create a national conservation ethic that reinforces the work 
that we do at the State and regional level.
    In closing, the protection of our environmental assets, 
particularly our water supplies, must be given the highest 
consideration in all of our programmatic decision, for it 
actually our own self-protection and the protection of 
generations to come that we are doing. Thank you.
    [The prepared statement of Ms. Little follows:]

                  Prepared Statement of Val L. Little

    Chairman Lampson, Ranking Member Inglis, and Members of the 
Subcommittee, thank you for the opportunity to comment on ``Research to 
Improve Water-Use Efficiency and Conservation: Technologies and 
Practices.'' With much of the country gripped by drought, this is a 
very timely issue and the members of the Water Conservation Alliance of 
Southern Arizona (Water CASA) that I represent here today appreciate 
your leadership and interest in the increasingly efficient use of our 
water supplies throughout the Nation.
    Water CASA was formed 10 years ago to address many of the same 
issues you are grappling with here today. Members include both public 
and private utilities, municipalities that are not in the water 
business but understand that efficient water use is critical to their 
economic viability, our county government and our regional 
replenishment district. When formed, we partnered with the University 
of Arizona enabling us to not only provide conservation programs to our 
members' customers but to advocate for water conserving public policies 
and to do the applied research necessary to increase the effectiveness 
of the programs we undertake.
    The good news is that living in the Sonoran desert, we have long 
been focused on water conservation, reducing our per-capita consumption 
from over 200 gallons per person per day to 150 gallons per person per 
day during the 1970's, long before most regions of the country were 
giving efficient water use a thought. The down side is that we have 
implemented all the inexpensive and easy programs to save water and now 
are very keenly aware of the difficulties and expenses that lie ahead 
to save that next increment of water.

RESEARCH AND DEVELOPMENT NEEDS FOR TECHNOLOGIES AND PROCESSES TO 
                    ENHANCE WATER-USE EFFICIENCY AND WATER CONSERVATION

    Water CASA asks that you consider using the 200 WaterSense Program 
partners, working with EPA, to prioritize the specific national needs 
in the area of applied research. The entire water conservation 
community, including affiliates of the Alliance for Water Efficiency 
(AWE) stands ready to help. Many of my colleagues around the Nation 
will provide the Subcommittee with additional comments and offer you 
their research priorities in the days ahead.
    The Nation's policy-makers need a better understanding of which 
areas in the country or which demographic profiles have the highest 
potential for increased water use efficiency. Some areas of the country 
have per-capita residential water use that is two or three times the 
per-capita residential water use in Tucson even though these areas 
receive two or three times the rainfall that we receive. While 
volumetric water use does not necessarily correlate with either 
efficiency or wastefulness in and of itself, these differences must be 
much better understood as the country goes forward facing increased 
drought and stressors to our water supply.
    Members of Water CASA support all technological efforts to save 
water but we readily acknowledge the limits of technology. The human 
behavior factor can easily trump any technical strategy with the 
inadequate monitoring, management and maintenance of technological 
tools. The human factor is of greater consequence for many water saving 
technologies as compared with energy technologies (example: the highest 
rated irrigation system available results in extremely inefficient 
outdoor water use if the homeowner or landscape manager fails to 
properly monitor, manage and maintain that system). We now know that 
homes with drip irrigation systems use 16 percent more water than homes 
without these systems (AWWA-Residential End-Users of Water Study, 
1999). In general, water conservation technologies are far ahead of our 
ability to educate and train the users and the consumers in the 
effective use of these tools. A national effort to lessen this 
disparity is essential.
    Because we in Southern Arizona are ahead of many areas of the 
country in the use of reclaimed water, we see a looming tendency to use 
water without maximizing efficiency in an effort to generate more 
effluent, and to be less frugal with reclaimed water than with the 
potable water supply. Some view reclaimed water as a revenue stream as 
much as a water source. This issue needs to be studied to assure that 
efforts to generate revenue do not overwhelm the need to conserve, and 
to ensure that the public is not paying a premium for the use and reuse 
of their water supply. Water CASA holds firm that the least costly 
water source is that which is not necessary to provide and we want 
decisions related to these issues to be made by our elected officials 
rather than water and wastewater providers who may be more focused on 
the potential for revenue losses rather than the potential for water 
savings.
    National research efforts in water use efficiency needn't be 
limited to just the EPA (this committee). Coordination and 
collaboration with other federal agencies, such as the Field Services 
Offices and the Science and Technology Units of the Bureau of 
Reclamation, can assure that research efforts are not duplicated.
    Water CASA strongly supports research efforts in the water 
conservation arena that are focused on actual, quantifiable water 
savings rather than projected or modeled assumptions. Analysis of what 
has worked best and the honest assessment of what has been less 
effective can serve to inform the research and development direction we 
take next. For example, we recently completed an extensive study of 
water conservation programs around the country; their cost and 
benefits, and their actual water savings (ECoBA: Evaluation and Cost 
Benefit Analysis of Municipal Water Conservation Programs, 2006). One 
of the most startling outcomes was that actual water savings for toilet 
rebate programs was much less than expected (15,000 gpy) at about 7,000 
gallons per year as compared with the savings from toilet replacement 
programs which was over 26,000 gallons per year. As a result, we no 
longer recommend rebate programs to our members but we advocate direct 
install programs in areas where aging, high-water-using toilets are 
still in use.

WATER CASA'S PERSPECTIVE ON CURRENT FEDERAL EFFORTS TO PROMOTE WATER-
                    USE EFFICIENCY AND WATER CONSERVATION: WATERSENSE 
                    PROGRAM OF THE EPA

    The EPA WaterSense Program is a very effective effort that Water 
CASA has supported since its inception and we are pleased to count 
ourselves among the founding WaterSense Promotion Partners. 
Specifications, licensing, labeling, and publications are all great 
tools for us so we say do more, do faster! We are currently in the 
midst of a program that will replace 1000 high water using toilets in 
Pima County and we are using only High Efficiency Toilets (HET = 1.2 
gpf) that are qualified to carry the WaterSense label.
    Additionally, Water CASA will back any increased training and 
certification efforts for water related professionals in the use of the 
appropriate technologies touted by WaterSense. As stated above, the 
efficiency to be gained by our technologies is limited by our ability 
to have qualified and capable humans monitoring, managing and 
maintaining many of these technologies.
    WaterSense needs to offer a grants program or research funding 
specifically designed to increase our understanding of the costs and 
benefits of conservation efforts as compared with cost and benefits of 
purchasing, pumping, treating, and delivering additional supplies of 
water. As stated above, with few exceptions, the cheapest source of 
water is that which you don't have to supply.
    This subcommittee can set a goal to require High Efficiency Toilets 
(HET, 1.2 gpf or less), waterless urinals, and WaterSense rated 
fixtures in all new construction by 2014, as we did nationally for the 
ULF 1.6 gpf toilets in the 1990's. Water CASA would also strongly 
support a requirement that any high-water-using toilet in properties 
sold be retrofitted at the time of resale with HET toilets.

COMMENTS ON THE REP. MATHESON DISCUSSION DRAFT

    The potential water savings from residential greywater reuse (water 
from showers, laundry and lavatory sinks) is far too compelling to 
ignore. Water CASA estimates that 35 gallons of greywater are generated 
by each of us every day. This translates into as much as 50,000 gallons 
of potable water that can be saved each year in every household that 
uses the greywater it generates for toilet flushing and landscape 
irrigation.
    National standards and regulations regarding the reuse of greywater 
generated in residences should be promulgated. The public needs 
complete and accurate information regarding the safe and effective use 
of this water source. This effort could be modeled on the State of 
Arizona regulations promulgated in 2001 by our Department of 
Environmental Quality. Arizona requires no permit if homeowners make 
use of their greywater within the parameters of a set of common sense 
guidelines. (http://www.azdeq.gov/environ/water/permits/download/rules/
1.pdf)
    As with greywater, the potential savings to our potable water 
supplies through the active and passive utilization of harvested 
rainfall is astounding. An analysis done at the University of Arizona 
with funding support from EPA in 2005 (Demonstration of the 
Sustainability of Harvested Rainwater in Arid Lands to Meet Water 
Requirements, R9-03-478) concluded that in urban areas of Pima County 
the amount of rainfall that could be captured from rooftops, paving, 
landscaped areas and bare ground is equivalent to over 75 percent of 
the water delivered to the same urban area by the water provider.
    The Arizona model of providing incentives (rebates, tax credits, 
development fee reductions, etc.) for increasing the use of household 
greywater and the harvesting of rainwater can also form the basis for a 
national policy. These incentives can be tailored to motivate home 
builders, prospective home buyers and existing homeowners as well. In 
Arizona, we currently offer a $200 tax incentive (costs, up to) to home 
builders who plumb new construction for greywater capture. 
Additionally, we offer a $1,000 tax incentive (25 percent of costs, up 
to) to home owners who install a greywater and/or water harvesting 
system.
    How we achieve maximum feasible usage of alternative sources of 
water, both greywater and rainwater, is a topic that deserves our 
considerable attention and Water CASA is pleased that both of these 
alternative sources of supply have been put forward in this draft 
legislation.
    Working demonstration sites can be effective teaching tools for the 
public if the visitation traffic is high enough. We support efforts to 
provide more of these types of green residential, commercial and 
industrial buildings (examples: Casa del Agua in Tucson, where we have 
compiled 20 years of water use data for a family of three, the newly 
opened UA College of Architecture and Landscape Architecture Addition), 
public landscapes (examples: The Garden in Washington County, Utah, The 
Water Conservation Garden in Cuyamaca, California), and planned 
communities.
    Water CASA shares the opinion expressed in this draft bill that, 
water conservation should certainly be a national goal and we welcome 
any opportunity to work with, not only the EPA, but all federal 
agencies that have water related mandates. Water CASA would support a 
workshop or series of meetings to offer input to EPA on what the 
national water use efficiency goals ought to be and to assist in 
establishing a roadmap of research and development projects to achieve 
that goal.

ADDITIONAL SUGGESTIONS FOR WATER-USE EFFICIENCY EFFORTS AT THE FEDERAL 
                    LEVEL

    Water CASA wishes to take this opportunity to put forth ideas that 
may not have been considered at the federal level. We acknowledge this 
is a most unique opportunity to provide input and we want to make the 
best use of it.
    A national goal of 100 percent metered water use by all municipal 
water providers and a requirement for all water providers to have some 
form of conservation rate structure (examples: seasonal rate 
differential, time of day pricing, inclining block rates, surcharges 
tied to usage) in place by a targeted date is the highest priority 
recommendation from Water CASA.
    Require all water suppliers (large, small, public and private) to 
keep system leakage below 10 percent of their deliveries. Provide a 
financial penalty or financial incentive to achieve this goal.
    Water CASA is increasingly focused on the huge savings to be 
realized from increasing the effectiveness of water and energy use in 
plumbing systems. We suggest additional plumbing standards that embrace 
manifold systems, recirculating and on demand systems, the unbundling 
of hot and cold water lines, the insulation of all hot and cold pipes 
to at least R-4, elimination of plumbing pipes in slabs, smooth curves 
and fewer joints in all new construction. Though highly variable, the 
savings in water and energy by full utilization of these simply 
adjustments in how we plumb could achieve savings as high as 50 percent 
of what is currently being used.
    A national public awareness campaign can have tremendous impact on 
the overall trend toward more efficient use of all sources of water. 
The need to conserve is nationwide and the entire country is paying 
attention to water issues as never before. Though the scarcity issues 
vary from region to region (salt water intrusion, aquifer depletion, 
rising treatment and distribution costs, groundwater contamination, 
drought, declining snow packs, etc.). Water CASA believes there is a 
key role to be played by federal lawmakers to create a national 
conservation ethic that reinforces the culture of conservation work we 
do at the State and regional level. It is critical that the general 
public understands the worth, the value of water.
    In closing, Water CASA wants to see national policies regarding our 
increasingly stressed water supplies that are equitable to all water 
sectors including the environment. The protection of our environmental 
assets must be given the highest consideration in all our programmatic 
decisions. We all must speak for the environment.

                      Biography for Val L. Little

    Val Little is the Director of the Water Conservation Alliance of 
Southern Arizona (Water CASA). She is also Principal Research 
Specialist with the University of Arizona's College of Architecture and 
Landscape Architecture.
    Val has an M.A. in Anthropology, from the University of Arizona, 
and has an A.B. in Landscape Architecture, from the University of 
California, Berkeley.
    She has written numerous water-use efficiency publications 
including ``Greywater Guidelines,'' published by Water CASA in May 
2002, and ``New Mexico Grey Water Guide,'' published in 2005.
    Prior to her 10 years as Director of Water CASA, she was Manager of 
The Nature Conservancy's Hassayampa River Preserve.
    Her work in water conservation and demand management has taken her 
to Jordan, where she worked with the USAID Water Efficiency and Public 
Information for Action program and the, Amman based, Center for the 
Study of the Built Environment.
    She currently works in Central America as well, as a board member 
of the Nicaragua based NGO, El Porvenir.

    Chairman Lampson. Thank you, Ms. Little. Mr. Veil.

 STATEMENT OF MR. JOHN A. VEIL, MANAGER, WATER POLICY PROGRAM, 
  ENVIRONMENTAL SCIENCE DIVISION, ARGONNE NATIONAL LABORATORY

    Mr. Veil. Mr. Chairman and Members of the Subcommittee, I 
appreciate the opportunity to speak to you this afternoon on 
produced water, an important source of water for our nation 
that is not currently mentioned in H.R. 3957. Over the next few 
minutes, I will describe some ways in which produced water is 
currently being beneficially reused and the need for additional 
research to allow further reuse of produced water.
    Produced water is water that is already in the underground 
formation with oil and gas. When the oil and gas is brought to 
the surface, the produced water comes along with it. A major 
constituent of produced water, from the standpoint of 
beneficial reuse, is the salt content. Produced water is the 
largest volume byproduct stream associated with oil and gas 
production. In the United States, up to 2.3 billion gallons per 
day of produced water are generated. By comparison, in the D.C. 
Metropolitan area, the D.C. government and the WSSC provide 
about 300 million gallons a day of drinking water to local 
residents. This represents only about 13 percent of the daily 
produced water volume for the Nation.
    There are many options for managing produced water, but 
today I will focus my remarks on ways in which produced water 
is being and can be reused. First off is underground injection 
for increasing oil recovery. This is the most widely used 
approach for managing onshore produced water. The water is re-
injected back into a producing formation. It serves to maintain 
reservoir pressure and hydraulically drive oil towards a 
collection well. The practice is referred to as enhanced oil 
recovery or water flooding. If the oil and gas operators did 
not have produced water to use for this enhanced recovery, they 
would need to rely on other surface or groundwater supplies to 
make up that water.
    A second important use is agricultural. Many oil and gas 
wells are located in areas of the country that are 
characterized by arid climates and scarce freshwater resources. 
Produced water meeting the water-quality requirements of 
agricultural users offers the potential to supplement and 
replace existing water supplies. Perhaps the most significant 
barrier to using produced water for agriculture involves the 
salt content of the water. Most crops and livestock do not 
tolerate much such salt, and continued irrigation with salty 
water can damage the soil structure.
    The third area I want to mention is use for drinking water. 
Texas A&M University developed a portable produced-water 
treatment trailer that can be moved into the oil field to 
convert produced water to potable water. During the past few 
years, this trailer has been taken out into the field in 
several locations in Texas for pilot studies. The water treated 
by the trailer met the applicable drinking water standards in 
every case.
    There are other methods of reusing produced water, 
described in my written testimony. In spite of the many actual 
uses for produced water, a large proportion of produced water 
is being disposed of in ways that offer little beneficial 
reuse. Although some sources of produced water have low enough 
dissolved solids that they can be used for irrigation or for 
drinking with minimal treatment, most U.S. produced water has 
high enough dissolved solids that significant treatment must be 
provided before the water can be reused. Government-funded and 
corporate-funded research have helped develop improved 
technologies for removing dissolved solids from produced water. 
While the cost of these technologies has dropped in recent 
years, they are still expensive compared to the alternative of 
injecting produced water underground for disposal.
    The bill under consideration in today's hearing is H.R. 
3957. The bill promotes research, development, education, and 
technology-transfer activities related to water-use efficiency 
and conservation technologies. I fully support those goals. 
However, H.R. 3957 does not include any mention or 
consideration of produced water. Produced water is available in 
large volumes, often in some of the most arid parts of the 
country. It represents a valuable water resource. With suitable 
treatment, produced water can be beneficially reused to support 
various end uses.
    I encourage the Subcommittee to carefully consider produced 
water as an additional source of water that can be part of the 
research programs envisioned by H.R. 3957. In particular, the 
program should support development of technologies that can 
remove dissolved solids so that produced water can be reused 
for agriculture, irrigation, human consumption or other 
purposes.
    Thank you for your consideration.
    [The prepared statement of Mr. Veil follows:]

                   Prepared Statement of John A. Veil

    Mr. Chairman and Members of the Subcommittee, I am John Veil, 
Manager of the Water Policy Program in the Environmental Science 
Division of Argonne National Laboratory (Argonne). I appreciate the 
opportunity to speak to you on produced water associated with oil and 
gas production, an important source of water for our nation. I am 
appearing today as a subject matter expert on produced water. Through 
support from the Department of Energy (DOE), Argonne developed the 
Produced Water Management Information System (PWMIS) website 
(web.evs.anl.gov/pwmis) that opened for public use in June 2007. I 
coordinated that project and wrote most of the technical content. I 
have collaborated with several universities on produced water research 
and have spoken at numerous technical conferences on different produced 
water topics.
    My statements reflect my own experience and opinions and are not 
necessarily those of DOE or Argonne. I want to share with you some 
information about produced water, some ways in which it is currently 
being beneficially reused, and the need for additional research to 
allow further reuse of produced water. I hope that you will consider 
the value and importance of produced water as you deliberate over H.R. 
3957.

What Is Produced Water?

    Produced water is water trapped in underground formations that is 
brought to the surface along with oil or gas. Because the water has 
been in contact with the hydrocarbon-bearing formation for centuries, 
it contains some of the chemical characteristics of the formation and 
the hydrocarbon itself. It may include water from the reservoir, water 
injected into the formation, and any chemicals added during the 
production and treatment processes. Produced water is also called 
``brine'' and ``formation water.'' The major constituents of concern in 
produced water are:

        <bullet>  Salt content (salinity, total dissolved solids, 
        electrical conductivity),

        <bullet>  Oil and grease (this is a measure of the organic 
        chemical compounds),

        <bullet>  Various natural inorganic and organic compounds or 
        chemical additives used in drilling and operating the well, and

        <bullet>  Naturally occurring radioactive material (NORM).

    Produced water is not a single, constant commodity. The physical 
and chemical properties of produced water vary considerably depending 
on the geographic location of the field, the geological formation from 
which it comes, and the type of hydrocarbon product being produced. 
Produced water properties and volume can even vary throughout the 
lifetime of a reservoir.

How Much Produced Water Is Generated?

    Produced water is by far the largest volume byproduct stream 
associated with oil and gas exploration and production. Approximately 
15 to 20 billion bbl (barrels; 1 bbl = 42 U.S. gallons) of produced 
water are generated each year in the United States from about 900,000 
wells. This is equivalent to a volume of 1.7 to 2.3 billion gallons per 
day. Other countries around the world generate more than 50 billion bbl 
of produced water each year (nearly six billion gallons per day).
    The international oil and gas industry generates about two or three 
bbl of water for each bbl of oil. In the United States, the producing 
fields are older; they produce water at a higher rate (about seven bbl 
of water per bbl of oil).

Why Is Produced Water Important to the Oil and Gas Industry?

    The cost of managing produced water is a significant factor in the 
profitability of wells. The total cost (ranging from less that one 
cent/bbl to more than $5/bbl) includes:

        <bullet>  The cost of constructing treatment and disposal 
        facilities, including equipment acquisitions,

        <bullet>  The cost of operating those facilities, including 
        chemical additives and utilities,

        <bullet>  The cost of managing any residuals or byproducts 
        resulting from the treatment of produced water,

        <bullet>  Permitting, monitoring, and reporting costs, and

        <bullet>  Transportation costs.

How Is Produced Water Managed?

    As indicated in the PWMIS website, responsible management of 
produced water follows a three-tiered pollution prevention hierarchy. 
Where possible, technologies that minimize the volume of water 
generated should be employed first. Next, options that reuse or recycle 
produced water should be considered. When neither of those tiers is 
practical, disposal remains the only viable option. I will focus my 
remarks on ways in which produced water can be reused.
Underground Injection for Increasing Oil Recovery
    The most widely used approach for managing onshore produced water 
is re-injection into an underground formation. Although some produced 
water is injected solely for disposal, most produced water is injected 
to maintain reservoir pressure and to hydraulically drive oil toward a 
producing well. This practice is referred to as enhanced oil recovery 
(EOR), water flooding, or if the water is heated to make steam, as 
steam flooding. When used to improve oil recovery, produced water 
ceases being a waste and becomes a resource. Without that produced 
water to use, operators would need to use other surface or groundwater 
supplies as sources of water for the water or steam flood.
    Several years ago, while preparing a widely-cited white paper on 
produced water, I interviewed representatives from the oil and gas 
regulatory agencies in three states with large petroleum production to 
gather statistics on underground injection of produced water. In early 
2003:

        <bullet>  California had nearly 25,000 produced water injection 
        wells. The annual injected volume was approximately 1.8 billion 
        bbl, distributed as follows: disposal wells--360 million bbl; 
        water flood--900 million bbl; and steam flood--560 million bbl.

        <bullet>  New Mexico had 903 permitted disposal wells, with 264 
        of them active. It had an additional 5,036 wells permitted for 
        EOR, with 4,330 of those active. The approximate annual volume 
        of produced water injected for disposal was 190 million bbl, 
        and the annual volume injected for EOR was about 350 million 
        bbl.

        <bullet>  Texas had 11,988 permitted disposal wells, with 7,405 
        of them active. It had an additional 38,540 wells permitted for 
        EOR, with 25,204 of those active. The approximate volume of 
        produced water injected in 2000 (there were similar well counts 
        in 2000 and 2003) was 1.2 billion bbl disposed into non-
        producing formations, one billion bbl disposed into producing 
        formations, and 5.3 billion bbl injected for enhanced recovery.

Injection for Future Use
    When produced water contains very low salinity, it may serve as a 
source of drinking water. A project near Wellington, Colorado, is 
treating produced water from oil wells as a raw water resource that 
will be used to augment shallow groundwater aquifers to ensure adequate 
water supplies for holders of senior water rights. The oil company is 
undertaking this project to increase oil production. A separate company 
will then purchase and utilize this water as an augmentation water 
source. This water will eventually be used to allow the Wellington and 
northern Colorado water users to increase their drinking water supplies 
by 300 percent.
Use for Hydrological Purposes
    In addition to having value as water, produced water can also 
occupy space or resist Earth or fluid movement. In addition to its 
hydrological value for EOR, other potential hydrological uses of 
injected produced water include:

        <bullet>  Controlling surface subsidence in the wake of large 
        withdrawals of ground water or oil and gas;

        <bullet>  Blocking salt water intrusions in aquifers in coastal 
        environments; and

        <bullet>  Augmenting the regional ground water or local stream 
        flows.

    One of the most compelling examples of subsidence resulting from 
oil and gas extraction involves the Wilmington oil field in Long Beach, 
California. Since the 1930s, more than 1,000 wells withdrew about 2.5 
billion bbl of oil. Between the1940s and the 1960s, this field 
experienced a total of 29 feet of subsidence, caused primarily by the 
withdrawal of hydrocarbons. Subsidence in the Wilmington oil field 
caused extensive damage to Long Beach port industrial and naval 
facilities. A massive repressurization program, based on the injection 
of water into the oil reservoirs, reduced the subsidence area from 
approximately 50 km<SUP>2</SUP> to 8 km<SUP>2</SUP>. Approximately 2.3 
billion bbl of water were re-injected through 1969.
    Produced water is being considered for control of salt water 
intrusion in the Salinas River valley in California. This area has 
overdrawn ground water for domestic and agricultural uses, resulting in 
the salt water/fresh water interface moving six miles upstream. In this 
project, produced water would be discharged to the Salinas River or 
used locally for irrigation, thereby avoiding ground water withdrawal 
and reducing the driving force of the salt water intrusion.
    Produced water can potentially be used to augment stream flows. 
Where discharges are permitted, treated produced water meeting 
applicable discharge standards could be directly discharged to surface 
water bodies. Produced water could also be injected into formations 
exhibiting hydrologic interconnection with surface water bodies, or 
allowed to infiltrate to the water table through holding ponds.

Agricultural Use
    Many oil and gas wells are located in areas of the country that are 
characterized by arid climates and scarce fresh water resources. 
Produced water meeting the water quality requirements of agricultural 
users offers the potential to supplement and replace existing water 
supplies.
    Perhaps the most significant barrier to using produced water for 
agricultural purposes involves the salt content of the water. Most 
crops do not tolerate much salt, and sustained irrigation with salty 
water can damage soil properties. In addition, if livestock drink water 
containing too much salt, they can develop digestive disorders.
    However, not all produced water is equally salty. For example, some 
of the coal bed methane fields in Wyoming's Powder River Basin generate 
relatively fresh water. However, in addition to the salt content, the 
relative proportion of sodium to other ions is important because 
excessive sodium is harmful to soils. Soil scientists use the term 
``sodium adsorption ratio'' (SAR) to characterize the ionic 
proportions.
    Since produced water in the Powder River Basin frequently exhibits 
relatively high sodium concentrations compared to those of calcium and 
magnesium, the SAR of that water tends to be high. These waters can be 
used for some purposes without treatment, but often require either 
treatment of the produced water or application of soil supplements to 
control the SAR.
    Although most of the irrigation projects using produced water are 
located in the Rocky Mountain CBM fields, at least one large irrigation 
project involving the use of treated produced water can be found in the 
Kern River field in central California. There, a treatment system 
provides about 480,000 bbl/day of water for irrigating fruit trees and 
other crops and for recharging shallow aquifers.
Industrial Applications
    In areas where traditional surface and groundwater resources are 
scarce, produced water can become a significant replacement resource in 
some industrial processes as long as the quality of the produced water 
meets the requirements of the user. Produced water is already being 
used in some industrial applications; it may also be suitable for 
others.
    Produced water is already being reused in some oil field 
applications. One company in New Mexico has treated produced water then 
uses it to make up drilling fluids. This beneficial reuse of produced 
water saves more than four million bbl per year of local groundwater. 
Another important oil field application is as fluid used to 
hydraulically fracture tight shale formations to enhance natural gas 
production. Each ``frac job'' requires huge volumes of water, in many 
cases more than one million gallons per frac job. In areas where 
natural gas fields are expanding rapidly (e.g., the Barnett Shale in 
Texas and the Fayetteville Shale in Arkansas), local water supplies may 
not be adequate to meet the demand for frac water. Produced water or 
``flow-back water''--the water returning from the formation following a 
frac job--can be treated and reused for new frac jobs.
    The electric power industry uses a tremendous volume of water for 
cooling and other purposes. Many new or expanded power plants are 
facing challenges in finding adequate water supplies for use in cooling 
towers. Several years ago, DOE funded a project to evaluate the 
feasibility of CBM produced water to meet some of the cooling water 
needs at the San Juan Generating Station in northwestern New Mexico. 
The economics of using produced water at that specific plant did not 
appear favorable. Therefore, the utility decided not to move forward 
with implementation. Other applications may prove more productive, 
however.
    Produced water has been used for dust control on dirt roads in some 
states. In another innovative application, firefighters near Durango, 
Colorado used CBM produced water impoundments as sources of water to 
fill air tankers (i.e., helicopters spraying water onto fires) while 
fighting forest fires during the summer of 2002.

Use for Drinking Water
    In the past, the treatment costs to remove salinity and other 
parameters from produced water for purposes of meeting drinking water 
standards were prohibitively high. However, in recent years, costs to 
develop and deploy treatment technology have dropped. At the same time, 
communities running out of water are willing to pay higher prices for 
clean water. Treatment costs are approaching water prices in some 
cases. These developments provide the crucial incentive for many water 
treatment technology developers deciding to enter the marketplace. A 
related but important issue involves managing the concentrated 
byproduct stream that results from treating the produced water.
    Texas A&M University developed a portable produced water treatment 
system that can be moved into oil fields to convert produced water to 
potable water. This can be used to augment scarce water supplies in 
arid regions, while also providing economic paybacks to operators in 
the form of prolonged productive lives of their wells. During the past 
few years, the desalination trailer developed by the university 
conducted pilot tests using produced water from several locations in 
Texas. The water treated by the trailer met the applicable drinking 
water standards. While visiting Texas A&M University last year, I 
personally drank a glass of produced water treated through the 
desalination trailer. The water tasted fine, and I suffered no health 
effects.

What Can Be Done to Further Promote Reuse of Produced Water?

    In the preceding paragraphs, I have summarized the resource value 
of produced water. In spite of the many actual uses for produced water 
today, a large proportion of produced water is being disposed of in 
ways that offer little beneficial reuse. I would like to give some 
thoughts on efforts that the Federal Government could consider to 
encourage and promote broader reuse of produced water.
    Although some sources of produced water have low enough dissolved 
solids that they can be used for irrigation or drinking with minimal 
treatment, most U.S. produced water has high enough dissolved solids 
that significant treatment must be provided before the water can be 
reused. Government and corporate research has helped to develop and 
improve technologies for removing dissolved solids and other 
undesirable constituents from produced water. While the cost of the 
technologies has dropped in recent years, it is still expensive 
compared to the alternative of injecting produced water underground for 
disposal. Oil and gas operators have little incentive to spend more 
money to treat and reuse produced water when they can manage the 
produced water through other means. When produced water is injected for 
enhanced recovery, it is being put to a beneficial reuse. However, when 
water is injected to a non-producing formation solely for disposal, the 
produced water is permanently lost as a water resource.
    I suggest that the Federal Government support a significant 
research program to develop and improve technologies for treating 
produced water so that it can be reused. In particular, the program 
should support development of technologies that can remove dissolved 
solids so that produced water can be reused for agriculture, 
irrigation, or human consumption. This will help to provide valuable 
fresh water resources for areas that have insufficient fresh water.
    Most technologies that treat produced water to remove dissolved 
solids start with salty water as the input and end with a clean water 
stream and a concentrated brine stream as outputs. Management or 
disposal of the concentrated brine stream is another important 
consideration that can have a substantial impact on both cost and 
feasibility of the technology. Any produced water technology research 
program should include evaluation of brine management.
    Expanded reuse of produced water can be expedited not only by 
technology improvement, but also by careful evaluation of several 
policy aspects. One barrier to reuse is potential liability to the oil 
or gas company. If an oil or gas company treats it's produced water, 
then gives or sells the water to an end user (e.g., a municipality or a 
rancher), the company may later be sued by the end user if a person or 
a farm animal suffers ill effects. I hosted an oil and gas industry 
water meeting in 2005. The final session was an open discussion of how 
to turn produced water into a resource. Representatives of several oil 
companies indicated that the largest barrier was the corporate concern 
of liability. Corporate legal staff have been reluctant to approve some 
beneficial reuse projects because of the concern for litigation. As 
part of Congress' evaluation of legislation to enhance reuse of 
produced water, consideration of liability issues may help to expand 
reuse applications.
    A second potential barrier is the interplay of water rights with 
ownership or control of the produced water before and after treatment. 
As long as produced water is perceived as a waste or a byproduct, there 
is little demand for it. However, after the water has been treated so 
that it has a value, there may be competing demands for the water, 
potentially creating disincentives for treating the water.

How Does Produced Water Relate to H.R. 3957?

    The bill under consideration in today's hearing is H.R. 3957, the 
Water-Use Efficiency and Conservation Research Act. The bill promotes 
``research, development, education, and technology transfer activities 
related to water use efficiency and conservation technologies.'' I 
fully support those goals. However, H.R. 3957 does not include any 
mention or consideration of produced water. As I attempted to explain 
in the preceding paragraphs, produced water is available in large 
volume, often in some of the most arid parts of the United States. It 
represents a valuable water resource. With suitable treatment, produced 
water can be beneficially reused to support various end uses. I 
encourage the Subcommittee to carefully consider produced water as an 
additional source of water that can be part of the research programs 
envisioned by H.R. 3957.
    Thank you again for the opportunity to address the Subcommittee.

                       Biography for John A. Veil

    John Veil is the Manager of the Water Policy Program for Argonne 
National Laboratory in Washington, DC, where he holds the rank of 
senior scientist. He analyzes a variety of energy industry water and 
waste issues for the Department of Energy.
    Mr. Veil has a B.A. in Earth and Planetary Science from Johns 
Hopkins University, and two M.S. degrees--in Zoology and Civil 
Engineering--from the University of Maryland.
    Before joining Argonne, Mr. Veil managed the Industrial Discharge 
Program for the State of Maryland government where he had statewide 
responsibility for industrial water pollution control permitting 
through the National Pollutant Discharge Elimination System (NPDES), 
Underground Injection Control (UIC), and oil control programs. Mr. Veil 
also served as a faculty member of the University of Maryland, 
Department of Zoology for several years.
    Mr. Veil has published many articles and reports and has made 
numerous presentations on environmental and energy issues.

                               Discussion

    Chairman Lampson. Thank you very much. Even though it is 
not mentioned in this legislation that we are talking about 
here, there is legislation Representative Hall has introduced 
and this certainly should be given serious consideration in 
this bill.
    At this point, we are open for our first round of 
questions. The Chair recognizes himself for five minutes.

                   The Need for Government-funded R&D

    I would like to ask of Dr. Daigger first, and then, 
perhaps, all of you may want to comment on this. It is just a 
general question. But in your testimony, you write ``The United 
States led the world in developing and implementing 
revolutionary water-management systems throughout the second 
half of the 20th century. The question before us is whether the 
U.S. is going to give up its leadership in this critical area. 
And this is the path that we are on, but I can be reversed with 
a fairly modest set of actions by the Federal Government.''
    Can you talk for a bit about what those actions are that 
would reverse this trend? And the rest of you, feel free to 
chime in.
    Dr. Daigger. Yes, Mr. Chairman. I appreciate the question, 
because from my perspective, it really goes to the heart of the 
matter here. The question is how much investment in R&D will 
help translate some of the wonderful advancements that are 
occurring in some of the fundamental sciences into advances 
that then can be picked up by the private sector and delivered 
to consumers.
    I mentioned membrane technology as an example and Mr. 
Clerico showed you an example of how membrane technology in its 
current form is being applied in some very innovated ways. That 
technology, though, is really just the start. We look at the 
advances that are occurring in things like nanotechnology and 
biotechnology, what is needed is some investment to help take 
those advances and for our water sciences to translate that 
into the fundamental research that will apply to the water 
industry, so that those can be further converted into higher-
performing systems that will fit into the types of applications 
that Mr. Clerico described.
    You might ask why private industry wouldn't fund that slice 
of research. The answer is that the benefits of that research 
will be broadly available, and it is not possible for private 
industry to capture the return on that particular investment. 
Once that research is completed, though, it will allow private 
industry to build the businesses and so forth, and through tax 
revenue, to repay the public investment. We have seen this time 
and time again in this country, and this is the model that 
countries like Singapore and Korea are adopting and that 
countries, like Canada and France, have used in the past.
    The other aspect of this is because we haven't had for the 
last several years funding of this type of research. To a 
certain extent, we are starting to lose the academics because a 
successful academic needs research to publish, and they need 
research to fund their students. And the $20 million that I 
mentioned is actually--we have a working group within the Water 
Environment Federation that is looking at the need for 
professionals in the future. That is based on some fairly 
rigorous math in terms of the funding for faculty and therefore 
students to provide the professionals that we need to continue 
forward.
    Finally, this is something which the U.S. Federal 
Government has done in the past, and it was that research that 
allowed us to develop the systems that have benefited the 
country. It has created the opportunity for us to serve the 
rest of the world. I have every confidence that with support 
from the Federal Government that the innovation engine can be 
restarted, both to our benefit, in terms of water resources, 
but again, it will pay itself back in terms of the economic 
activity that it develops.
    Chairman Lampson. Anyone else want to comment?
    Mr. Clerico. Very briefly, and just to supplement, not to 
repeat anything. There is also the research component to deal 
with developing standards in the public health aspect. In my 
regards, with regards to water reuse, it has been a long, hard 
fight to convince people that this really works, and if there 
was the research to develop national standards, which the rest 
of the world has always looked to us towards in being leaders 
in adopting these types of standards. We are starting to look 
to other countries that are developing the standards before us, 
and I don't think that is healthy.

                 User Reactions to Water Reuse Programs

    Chairman Lampson. How about the social barriers to 
implementing various reuse programs and policies. Would you 
talk about that for a minute? How does the acceptability of 
technologies impact their use, and how can the Federal 
Government help to encourage Americans to use existing 
technologies?
    Mr. Clerico. I have seen, specifically through my 
experience particularly with the green-building movement, 
people's willingness to innovate, in terms of their willingness 
to use new things. The water reuse systems we have in place are 
in some of the highest-value properties you are going to find, 
and they are acceptable in those applications. I think we have 
broken the barrier around acceptability because it has been 
going on for enough years in places where I don't think anyone 
can question it is not going to be good enough for me because 
it has been good enough already for people long enough.
    So I think the research would just help us educate more 
people quicker. As I said, we just can't take another 20 years. 
It has been a long, hard fight.
    Chairman Lampson. Thank you very much. My time has expired, 
and I now recognize Mr. Inglis for five minutes.
    Mr. Inglis. Thank you, Mr. Chairman.

             Do We Need More R&D or Better Implementation?

    Ten years ago, when we were building a house, I asked our 
builder about putting in a greywater system, and I think I 
asked when the septic people were present, too, and they looked 
at me like I had grown an extra head or maybe some other 
appendage, thinking of what? And I said to them maybe we could 
reuse some of the water. Basically, it was a nonstarter, shall 
we say? This wouldn't work right. There would be no real need 
to.
    So to some extent, necessity is the mother of invention, 
especially if you are in some arid climate, like where you are 
from, rather than South Carolina. We are at the top of the 
water streams. We drink it, and we flush, and then it goes down 
the river. We were ready to start there at the top of the 
streams, and maybe everyone figures, well, we have got plenty, 
so we will just keep doing it the way we have been doing it.
    So it occurs to me that really what is going to drive this 
is necessity, right? I mean if you are in Arizona, you really 
need to do something, if you are in South Carolina, at the 
headwaters, maybe it is not so imperative, or you don't feel 
that it is.
    And then, Ms. Little testified that the greatest impact is 
going to come from human behavioral change rather than 
technology. So I wonder if that being the case--I think that is 
probably true, that really what is going to happen is that when 
people decide that this is something that they want to do. 
Maybe I should have insisted ten years ago on a greywater 
system. Of course, I couldn't afford the irrigation system that 
would go with it, so it would have been just sitting there all 
of these ten years, but we would have been putting it in the 
drain field, I guess.
    But anyhow, I am wondering about the efficacy of this 
research. I trust that research will give some breakthroughs, 
but it is being done in a lot of places. For example, Furman 
University has a very exciting project in their science 
building. It is a way they are going to flush, and then it is 
going to come back into the building as drinking water, after 
going through all of these greenhouses and really amazing 
things. So apparently, this technology is here now. It is 
available, right? So can you tell me a little bit more about 
why we need to research it, when it looks like what we really 
need to do is just apply it, and the applying it is human 
behavior, and the human behavior is driven by a felt need, 
right?
    So does anybody want to respond to that?
    Mr. Clerico. Well, I think it is a confidence issue, and it 
is being done, but it is not being done in a widespread nature, 
and it is just like the green-building movement in general. A 
lot of things are starting to happen, but they are going to 
take time, and there is just so much we could do to advance 
this in a more creative way and in a more open way so that 
people would have confidence in what we are doing and so that 
we could continue to learn. We have just scratched the surface, 
so I wouldn't say let us stop here because it is already being 
done. We have demonstrated that really creative things can be 
done, but there is so much more, if we want to be leaders in 
this, that I suggest we need to move forward aggressively, as 
opposed to just watching everyone else do it.
    Mr. Inglis. Dr. Daigger.
    Dr. Daigger. Actually, I have some familiarity with South 
Carolina as well. In the mid-90s, I was on the faculty at 
Clemson, so upstate South Carolina is an area that I know, and 
actually they could have some relatively significant water 
problems during dry periods and so forth.
    You ask a very, very good question, and I think there is an 
aspect here that we haven't quite articulated. There are a 
number of ideas and a number of elements of paradigm change in 
terms of how water can be managed. And you have spoken to some 
of them in terms of greywater and so forth. Each of us have 
spoken to an element of it. It is a little bit like the seven 
blind men trying to describe the elephant, in the sense that it 
is the combination of several of these ideas that can really 
transform and provide a dramatic change and a dramatic 
improvement in terms of how water is managed. And until a 
number of these elements come together, the profession, and I 
use that term broadly, it is those folks on a broad basis that 
make decisions about water management. Until some of these 
systems come together on a larger basis, folks won't get it in 
terms of how all of these different things can come together 
into a new paradigm.
    I was very pleased to see in the bill the proposal to do 
demonstrations, because demonstrations are the aspect that can 
help pull several elements together to see how a more 
integrated system can perform at a much, much higher level. You 
know, in the U.S., we use about 150 gallons per person per day. 
That could easily be cut to a third or a fifth.
    And if you think about, then, how much more security we 
would have in terms of drought-proofing, and also, quite 
frankly, how much better off the environment would be if we 
just left that water in the environment. Many places, including 
some instances in upstate South Carolina, one of the biggest 
environmental impacts we have in the water environment is just 
the amount of water we take out. It is not just the quality; it 
is the quantity. So where this bill would really help is from 
the demonstration side, that will help to provide--you know, we 
are all tactile learners. We have to see and feel and work with 
systems. That is really where that will help how these various 
systems can come together in terms of a system that can perform 
at a much higher level.
    Chairman Lampson. Ms. Giffords, you are recognized for five 
minutes.
    Ms. Giffords. Thank you, Mr. Chairman.

             Water Conservation Technologies and Practices

    It seems to me that we are all pretty much on the same 
page. The big challenge is how do we get these ideas out to the 
public? How do we get the public-private cooperation and the 
partnership at the local, State, and federal levels?
    And these are big challenges, particularly for those of us 
who are in the West. And actually, from the University of 
Arizona, Dr. Swetham was on 60 Minutes just last week talking 
about forest fires and what is happening with the impact of 
global warming on the West. So it is really widespread, and our 
challenge, of course, as policy-makers, is how do we derive the 
best and the brightest ideas.
    So I would actually like to turn it over to the panel, 
starting with Val Little. All of you have had a chance to talk 
about some of these creative avenues you have taken, but I was 
just hoping that each of you would tap into some of the best 
ideas that perhaps, we, as a committee, can glean and pull 
those ideas forward. I know this all related to Representative 
Matheson's bill, and this would be an idea, but if you could, 
please, touch on those, starting with Val and what you are 
doing with Water CASA.
    Ms. Little. We are very big in the area of greywater reuse, 
and to respond to Congressman Inglis's dilemma about building 
his house, greywater may not be the answer for every house. In 
his particular part of the country, it may be harvesting 
rainwater. Certainly, there is a lot more rain there than we 
get in the arid Southwest, so maybe that would be the 
appropriate innovative technology for you to have tapped into.
    There is no one-size-fits-all, and there is no easy answer. 
One of the things that we try to look at in a balanced way 
within Water CASA are all of the tools. There is no easy 
answer. Rates won't solve all of the problems. Research won't 
solve all of the problems. Technology won't. Public information 
won't. But all of the tools that we work with together, it has 
to be comprehensive, and it has to be consistent. That is what 
I think the opportunity is for all of you, maybe not just with 
this bill, but certainly this is a beginning, and this is 
something which to build on.
    Particularly regarding greywater. It is driven by the 
public in that particular region that wants to reuse their 
water. They instinctively understand in a desert environment 
like that, where many of the laundry facilities are very 
readily accessible, and they have one mesquite tree or one very 
tough tree, it makes very good common sense to say, why 
wouldn't I use those 35 gallons of water today and provide 
increased shade for my house by using my laundry water. So it a 
very simple driver. It is not complicated, reclaimed water 
systems. It is driven by the public who had a thirst to know. 
They wanted to know how to do it, and that is what we have 
worked toward.
    Mr. Thompson. I would like to add to that. It seems to me 
you really have a two-pronged problem in terms of how you deal 
with it. In our State of Utah, we don't allow greywater 
systems, which I certainly think we should. So you have the 
education of regulators and those who determine who can do what 
within their community, and then you have the general education 
of the public.
    I watch several agencies struggle with the reuse concept, 
because there is no question, technologically. We can take our 
wastewater systems, treat that water, and bring it back in a 
quality that is drinkable. The public acceptance of that has 
not been well received. They have accepted reusing that water 
in their parks and on their lawns and in their gardens and golf 
courses and many other places, which takes the pressure off our 
water supply. So there are other things you can do.
    I still think that in the long-term, to really be 
successful, you have to have a very aggressive public education 
system. In our district, we educate fourth or fifth graders, 
between 2,000 and 3,000, every year, in what we call a water 
fair. We spend time with the teachers in the public education 
system. We think it ought to be part of the required 
curriculum, but the school district has been very good in 
working with the district in those programs to bring all of the 
kids to the university campus. They spend a whole day on water, 
whether it is what it takes to treat it or the various aspects 
of water reuse, and where it comes from and how it gets to 
their tap.
    Secondly, we have been aggressive, not only in our area, 
but in Utah, for some time in what we call the Governor's Water 
Conservation Program, which is funded by the bigger water 
districts in the state. We encourage people to use water more 
wisely, and we have a series of ads that start, usually as 
people start using water, talking about time-of-day watering, 
and the simple things we can do in our house to save water.
    And third, I think you have to follow that up with local 
landscape ordinances, education of the people, the builders, 
and the other parts of your community who really control what 
is going to happen in this arena, so that they realize that 
those options are there and how they can use them and implement 
them within their own business.
    Several years ago, as we developed our water-conservation 
plan, we had the builders. The biggest builder in the community 
sat on a citizen's taskforce. I have watched him for the last 
decade, as I have watched his communities build out, and they 
have become much more water-conservation oriented, more desert 
landscaping and so forth. He would not have done that--his 
earlier developments were all water features and lush lawns and 
lakes. He has changed dramatically, and I think it has been to 
both the benefit of the community and to him economically.
    So there are a lot of things that are really, still, in my 
mind, hands-on public education because people won't act until 
they are educated. And once they understand it, often, you 
know, they usually make the correct decision, and my experience 
is when people understand the facts, they almost, inevitably, 
make the correct decision.
    Ms. Giffords. I know we are out of time, and perhaps the 
other panelists can weave the answer into your questions later, 
but let me just say, in Tucson, where I am from, we have an 
initiative on the ballot right now that potentially could be 
really devastating for economic development, and it is a scare 
tactic of toilet-to-tap. And what we see, particularly in the 
area where you can have initiatives is that the public is 
moving forward. They are going to shut down development and 
growth, unless we, as policy-makers, are really smart about 
this. We will know in a couple of weeks what happens with our 
initiative in Tucson. Those states that have the ability for 
the voters to get out and put their own legislation on the 
ballot, we have got some real concerns unless we step up and 
address the real problems.
    Chairman Lampson. And I was in a meeting yesterday, and my 
district in Texas, where we were talking about stopping 
development because we have too much water. And from another 
part of Texas, in Rockwell, I recognize the gentleman, Mr. 
Hall.

             Hydraulic Fracturing and Enhanced Oil Recovery

    Mr. Hall. Thank you, Mr. Chairman, I have kind of a couple 
questions. First, Mr. Veil, you said that most produced water 
is injected into underground formations to maintain reservoir 
pressure and for enhanced oil recovery. And I will get back to 
that in a minute. How do I associate the word fracking with 
that? In our area, we hear that a lot when the wells are low 
and they go back with a special way to get some of the oil that 
is left there. Have you included all of that into your 
description that, according to your testimony, it is injected 
there for enhanced oil recovery, or is it there for some other 
reason, disposal or use? Or are there other uses for the water? 
And are those three connected in some way?
    Mr. Veil. They are connected somewhat. The fracture water 
that you mentioned, there is a process known as hydraulic 
fracturing, where you pump large volumes underground.
    Mr. Hall. And electrofraction and water fracking.
    Mr. Veil. Right, and the purpose is to make cracks in the 
rock so that either the oil or the gas can more readily flow 
toward the well where you collect it. In certain very tight 
shale formations, such as the Barnett shale in Texas, the 
Fayetteville shale in Arkansas.
    Mr. Hall. That is the one I am thinking about.
    Mr. Veil. In order to make them productive, you have to 
take incredibly large volumes of water for the fracture job. I 
have visited some in Arkansas where they are using more than 
one million gallons per frack job, and it is hard to find that 
kind of water. When you are fracking five, ten wells, it is 
okay, but if you are fracking hundreds of well, you need to 
find that water from somewhere. So produced water may serve as 
a source of water to be partially cleaned and put back in the 
ground for energy production.
    Mr. Hall. In Barnett, they are not drilling directly 
through there for some reason. Maybe it is the massiveness of 
it or something. They are slanting from around it, as I 
understand it.
    Mr. Veil. I think that is a strategy to try to produce more 
gas from one well, but I can't be sure on that.
    Mr. Hall. I am for that if it is on my 500 acres, which, I 
doubt, it will be.
    But how would enhanced oil recovery be effected if produced 
water was used in some other capacity, for instance as a non-
potable reused water?
    Mr. Veil. I believe that there is plenty of produced water 
to go around. If we ended up in a situation where you couldn't 
use produced water for enhanced recovery, and you had to find 
something else, that wouldn't create an issue.
    Mr. Hall. And I might ask this: in my bill that the 
Honorable Chairman mentioned a moment ago, H.R. 2483, I 
included a section for research and development for produced 
water technology, and I have in my bill to give the R&D program 
to the Department of Energy. Do you have any thoughts about 
that, as to whether that is appropriate for this type of R&D to 
be maybe in the EPA or the Department of Energy? I have always 
preferred the Department of Energy over the EPA, but I probably 
may not have thought that one through. What is your idea on 
that?
    Mr. Veil. Well, sir, I am going to respectfully decline to 
answer that in that it is a matter of policy rather than 
technical matters, and I defer to the judgment of the panel in 
this case.
    Mr. Hall. Well, that is what we have the panel for. But I 
accept that. But if you ever run against me, I am going to use 
it.
    I yield back my time. Thank you, sir.
    Chairman Lampson. Thank you, Mr. Hall. He would be a good 
politician, though.
    Mr. Hall. Yeah, he would be all right.
    Chairman Lampson. I recognize Mr. McNerney for five 
minutes.

              Customer Satisfaction With Greywater Systems

    Mr. McNerney. Thank you, Mr. Chairman.
    Ms. Little, how satisfied are customer households that have 
greywater systems installed? Is that something they like or is 
it a problem for them?
    Ms. Little. Because it is their option, no one is required 
to have it, they are very satisfied. They self-sort into 
households that want to be more water conserving. They have a 
high conservation ethic, and they really want to do the right 
thing, and they have great pride in their individual systems. 
Most of them have been developed specifically by them, for 
them.
    And I would say the least satisfying part of all of our 
efforts with greywater is the lack of qualified installers and 
analysts. We get more calls from people saying we need a 
plumber, we need someone to come and tell us how to, than we do 
anything else. And there is a dearth of proper plumbers. And we 
need green plumbers.
    Mr. McNerney. Do you think that would be the case if it was 
required for a city or for a city to have greywater? Do you 
think the satisfaction level would be equally high?
    Ms. Little. I think that, overall, the majority of the 
population is not ready yet. And one of the reasons that we 
worked on a bill to get houses plumbed to accommodate greywater 
at some later date is because of the huge growth spurt we were 
in. And in order to get those houses plumbed at the time of 
construction, which is very inexpensive to do, knowing full 
well that households who might not even know what greywater is 
now, five years from now, they will be very disappointed if 
they can't access their sources of greywater and reuse them as 
costs go up and the climate for water changes.

                         Greywater System Costs

    Mr. McNerney. Thank you. Mr. Clerico, what do you think the 
incremental cost is in terms of a new house for implementing 
the greywater system, maybe in a percentage, if you could think 
of it?
    Mr. Clerico. The parties that have been involved with this, 
it is probably about a one percent incremental cost on capital 
for the residential buildings we have been involved with. They 
are multi-family. They are not single-family homes. It is going 
to be very site specific to the exact use. One of the natures 
of this business is it is very specific to the use and to the 
technology that is adapted. We have seen about a one percent, 
but in the long-term view, as I showed in the slide, we are 
seeing a very bright economic picture going forwards. It is 
just that initial capital cost.

                      Can We Drink Produced Water?

    Mr. McNerney. Mr. Veil, I have a question about produced 
water. Is there technology that would clean this for 
residential use, or is it too contaminated to be sent into a 
residence?
    Mr. Veil. Produced water, much like other sources of 
industrial water, can be cleaned. It depends on how much you 
want to spend to clean it, in order to get it clean enough for 
drinking purposes. That has been the problem so far is the cost 
of getting out sufficient pollutant has exceeded the cost of 
being able to inject it somewhere for disposal, so there has 
been no incentive on the oil-company side to do it that way.

                 Cost of Other Forms of Water Treatment

    Mr. McNerney. Thank you. Dr. Daigger, you mentioned 
membranes, UV and oxidation. How cost-effective are those, and 
how do they compare, say to desalinization?
    Dr. Daigger. Well, the membranes are one form of 
desalinization. For example, the type of membrane that Mr. 
Clerico was showing in his system is called an ultra-filtration 
membrane, which is one which separates the pores are large 
enough to separate out particles but not to filter out 
dissolved solids. A reverse-osmosis membrane, which would be 
used for desalinization, has pores which are at the molecular 
scale, and therefore, can separate out dissolved constituents. 
So the desalinization and membranes are somewhat synonymous in 
the sense that membrane technology, today, is what is used, but 
a specific type of membrane system.
    Mr. McNerney. So the desal is roughly competitive, cost-
wise, then? I mean, you are saying they are basically two kinds 
of the same----
    Dr. Daigger. The difference is that the pressure required 
for a particle-separation membrane might be on the order of, 
let us say, three or four pounds per square inch. For a reverse 
osmosis membrane, it might be 150 pounds per square inch. So 
the amount of energy that is required is significantly 
different to desalinate compared to the other types of 
membranes, and they are somewhat more expensive to handle that 
higher pressure and so forth.
    I might say that, for membrane technology, you know, over 
the last ten years, the costs of membranes have come down about 
tenfold over the last ten years. That is starting to plateau 
out in terms of cost because the new generations of--for 
example nanotechnology and so forth. The critical need to take 
the advances that are occurring in, for example, 
nanotechnology, do that slice of research that will bring it 
into the water industry, I think you can see one tenfold 
reduction, and how that can change the game. Another tenfold 
reduction could, again, really change the game, and that is the 
type of opportunity that there is for us to really transform 
how we manage water.
    Mr. McNerney. Thank you.
    Chairman Lampson. Dr. Bartlett, you are recognized for five 
minutes.
    Mr. Bartlett. Thank you very much. I feel something of a 
kinship with the panel. I noted that Mr. Thompson is from 
Washington County. I represent the first Washington County in 
the Nation, in Maryland, and Mr. Veil got one of his Master's 
degrees from the Zoology Department at the University of 
Maryland. And I suspect that before you were born, I got my 
Master's there in '48, and my doctorate in 1952. So I feel 
something of a kinship with the panel.
    I would like to note that the solution to pollution is 
dilution is probably no longer a very supportable process with 
our diminishing water supplies. You know, we are one of the few 
counties in the world that flushes its toilets and washes its 
streets and waters its lawns and washes its cars with drinking 
water.
    I had mentioned that to our local water people because I 
wanted to do something else. In a former life, I was a 
homebuilder, and they said, oh, gee, they might drink out the 
hose. And my response was, you don't drink out of the toilet do 
you? You don't drink from the toilet, so you don't drink from 
the hose if you are using greywater, right? It is a matter of 
education, I think.
    I have had a concern that in all of the development that 
doesn't have public water and sewer access. We are consuming 
farmland and because the water has to percolate, and in our 
area, they won't even give it a percolation test if it slopes 
more than 25 percent. So if the water percolates and the land 
doesn't slope more than 25 percent, that by definition is 
farmland, so I wanted to demonstrate that you could live very 
comfortably without doing that. I wanted to build a house that 
had composting toilets or constructed wetlands so you don't 
need any connection to the Earth for that. And I wanted to 
build a home where I used rainwater, because in our area, we 
have about 40 inches per year, and that is quite enough water 
to meet all of your needs. And they told me, well, we can't do 
that because that is cistern water, and we don't drink that. We 
don't drink rainwater. I said, well, of course, we drink 
rainwater. The rain falls on the hog lot, and then it runs into 
the stream, and the stream runs into the reservoir, and then 
you pull it out and treat it and tell me its drinking water. I 
said can I please have the water before it goes through the hog 
lot? And you know, they responded with some sanctimonious 
drivel about they had a responsibility to protect the public 
health. So my question is what can we do with these mindless 
bureaucrats so we can use these really current technologies to 
conserve water?
    Ms. Little. Could I comment? I would like to comment. I 
share your pain. We started with a regulatory agency who said, 
oh, no, no, no, we can't possibly do that. And I will tell you 
that the research that we did that we put into the hands of our 
regulatory agencies that caused them to change their minds, the 
hardest thing to do was to get them to fund a study of 
lawbreakers. Essentially what we wanted to do was look at 
people who were doing this because they knew it was the right 
thing to do, but they were doing so illegally. That being said, 
you have to keep at it, and you have to convince them, just as 
you did. I think anybody who just heard your statement would 
say, in a commonsense way, it does make sense. I know what goes 
into my own water. I know what goes into my own laundry. I know 
what goes out on my yard. It makes a great deal of sense to do 
it. It doesn't have to be complicated. It doesn't have to be 
high tech.
    Mr. Bartlett. Actually, the systems are very simple, and I 
built a home that had a greywater system in it. We separated 
the black water from the greywater, and even with the increased 
price of oil, those plumbing things are still very cheap. It 
adds very little to the cost of a house, if you do it when you 
build the house.
    Mr. Chairman, I would like to think about some federal 
legislation. I know, big government guy, but sometimes you have 
to do something that encourages our local jurisdictions to 
adopt some of these technologies. You know, you could build a 
home and live very comfortably on the Tarmac with composting 
toilets and constructed wetlands. And by the way, the water 
that comes out of the constructed wetland, if you have at least 
two tiers of that, it is good, potable drinking water. They 
really work very well. The water that falls on the roof of the 
house, if you have any meaningful sized house, meets all of 
your water needs, even without much conservation. If you don't 
take it and put it in your cistern, then it becomes a problem, 
doesn't it? It is not called storm-water runoff, so we built 
reservoirs to impound it and so forth.
    What we are doing isn't just dumb; it is really dumb. And 
we need some education so we change, and any advice that you 
can give us on the kind of bill that we ought to draft here to 
encourage our local jurisdictions to adopt these new 
technologies would be much appreciated.
    Thank you very much, Mr. Chairman, and I yield back.
    Chairman Lampson. A city who couldn't afford a water-
treatment facility created a system of wetlands that they, in 
turn, turned into a tourist attraction for bird watching, and 
so I would be happy to work with you on your legislation to 
encourage or incentive communities to explore this.
    Mr. Bartlett. Thank you. Up in Pennsylvania, there is a 
small community of I think a dozen homes or something, and it 
has a constructed wetland. It is a small fraction of this room, 
and it treats all of the water from all of those homes. And to 
do it in an individual home takes a very small space to do a 
constructed wetland. It really works very well, and it can be a 
very attractive garden. It doesn't have to be a swamp. You can 
actually walk over it if you put the proper kind of material 
over it and build it properly.
    Nature does a great job, you know. The water runs off of 
that hog lot, and by the time gets down, percolates through the 
ground and gets into a spring, it is now pure drinking water. 
By the way, John Stossel did a study in which people blind 
taste-tested, Mr. Chairman, and more people prefer tap water 
than they did bottled water. When they actually analyzed it, 
the tap water turned out to be higher quality than most bottled 
water. This is a huge rip-off. Everybody believes it is the 
right thing to do.
    Chairman Lampson. How much is it a gallon?
    Mr. Bartlett. About 3.50. It is more than oil. At $92 a 
barrel, water in the grocery store is more expensive than oil. 
Thank you.
    Chairman Lampson. Congressman Matheson, you are recognized 
for five minutes.
    Mr. Matheson. Thanks, Mr. Chairman. I just want to make a 
couple of comments, and I want to ask questions.
    First of all, Mr. Veil, I appreciate your suggestion for 
other items that ought to be considered in the legislation, and 
I say to the whole panel, that is really the purpose of this 
legislative hearing. We are putting a bill out there in draft 
form. As the author of the bill, I am certainly open to 
suggestions. I think this whole committee is, and that is the 
spirit of the science committee always is to try to put 
together the best bill that promotes public policy, and so 
beyond your opportunity for direct communication today, if you 
have any written comments, following, on what you think we 
ought to be doing with this bill, I would certainly solicit 
that from you because we want to make this bill as good as it 
can be.
    And secondly, I think it is important to note that this 
water issue really is relevant as a national issue. We saw data 
showing that 36 states in this country are projecting some type 
of water shortage in the next five years, and so while we have 
got witnesses from Arizona and from my State of Utah, which are 
known as being dry and arid states, the fact of the matter is 
that this is an issue that encompasses the whole country.
    And one of the two features of this bill that I would just 
like to highlight is the technology-transfer section of the 
bill because the idea here is that there are a lot of ideas 
that have implemented around the country. We want to create a 
clearinghouse to make sure that everyone can benefit from those 
ideas. Dr. Bartlett just talked about a small town in 
Pennsylvania that did something with the wetland opportunity. 
There are lots of anecdotal stories out there, and the notion 
of trying to combine that local, on-the-ground knowledge and 
letting people benefit from them is one of the primary 
motivations behind the technology-transfer section of the bill.

             Water Conservation and the WaterSense Program

    A couple of question I would like to ask really quickly: 
Mr. Thompson, you mentioned in your testimony that in your 
county, the per capita water use has dropped by 24 percent in 
the last 11 years. Could you give us a quick rundown of which 
policies or practices really made this water reduction happen?
    Mr. Thompson. Yes, I think it was a combination of maybe 
three or four things. Well, first of all, all of the cities put 
in tiered pricing. We ended up with time-of-day watering which 
made dramatic improvements. We are in the hot desert, so 
daytime temperatures, sometimes, are 110, 115 degrees, so we 
restricted any outside landscape watering, and then general 
public education to make the public aware of the need to 
conserve and that they had a public trust to do that.
    Mr. Matheson. And I understand that the Washington Water 
Conservancy District was the first district to partner with the 
EPA in its WaterSense Program, is that right?
    Mr. Thompson. We certainly are the first one in Utah.
    Mr. Matheson. And has that--how has that WaterSense Program 
helped you in terms of pursuing the water-conservation goals?
    Mr. Thompson. We are fairly new. You know, it is not an old 
program, so I think the thing that they bring to the table is 
that they have done a lot of research, in, particularly, 
upgrading the fixtures and appliances and building codes and 
influencing those codes which have resulted in reduced per 
capita consumption, particularly the new construction. You take 
a county like mine--you know we are going for $160,000. Most of 
those homes are new homes, so we are getting the benefit of 
those research in implementing the low-flow toilets and 
structures that have benefited by new construction.
    Mr. Matheson. I wanted to ask one question, also, about--I 
mentioned the technology transfer when I was just--in a couple 
of brief comments before I went to these questions. Do you, as 
a local water manager, see benefits to setting up this database 
from the EPA to allow this to happen?
    Mr. Thompson. Absolutely. I think it is--one of our great 
mistakes anywhere is we too often try to reinvent the wheel. It 
would be nice knowing somebody else has invented it, and take 
advantage of that, and so I think anytime we can get shared 
ideas so we don't have to reinvent those, it is a benefit to 
all of us.
    Mr. Matheson. Okay. Well, I appreciate the panel coming 
here today, and Mr. Chairman, I will yield back.
    Chairman Lampson. Thank you, Mr. Matheson.
    I thought this was very informative. Thank you for all 
coming. I appreciate the questions from the Members. We got 
some ideas. Maybe something will come to fruition from some of 
those. We will work on it. Again, we thank you for your time 
and your knowledge and your information.
    Under the rules of this committee, the record will be held 
open for two weeks for Members to submit additional statements 
and any additional questions that they might have for the 
witnesses, and with that, this hearing is now adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Additional Material for the Record


                     Section-by-Section Analysis of
                  H.R. 3957: THE WATER-USE EFFICIENCY
                   AND CONSERVATION RESEARCH ACT 2007
Purpose: To increase research, development, education, and technology 
transfer activities related to water use efficiency and conservation 
technologies and practices at the Environmental Protection Agency 
(EPA).

Section 1: Short Title

    This bill works to create a water-use efficiency and conservation 
research and development program within EPA's Office of Research and 
Development.

Section 2: Findings

    Section 2 outlines the findings of the bill and draws the 
connection between what EPA is currently doing in its WaterSense 
Program and how EPA's scope should expand in reaction to increasing 
water shortages across the country.

Section 3: Research Program

    Section 3 directs the Assistant Administrator to establish a 
research and development program within the Environmental Protection 
Agency's Office of Research and Development to promote water efficiency 
and conservation. The program should address water storage and 
distribution systems; and behavioral, social, and economic barriers to 
achieving greater water use efficiency. In addition, the program should 
research technologies and processes that enable the collection, 
treatment, and reuse of rainwater and greywater. The project areas of 
the program should reflect the needs identified by local and State 
water managers.

Section 4: Technology Transfer

    Section 4 directs the Assistant Administrator to collect and 
disseminate information on current water-use efficient and conservation 
practices at the non-federal level. This information should include 
incentives and impediments to development and commercialization, best 
practices, and anticipated increases in water use efficiency resulting 
from the implementation of these processes.

Section 6: Report

    Section 6 directs the Assistant Administrator to transmit reports 
to Congress which detail the progress being made by the Environmental 
Protection Agency with regard to the research projects initiated and 
the outreach and communication activities conducted.

Section 7: Authorization of Appropriations

    Section 7 outlines a five-year authorization.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

</pre></body></html>
